<html>
<title> - THE ISSUE OF POTENTIAL IMPACTS OF GLOBAL WARMING ON RECREATION AND THE RECREATION INDUSTRY</title>
<body><pre>[Senate Hearing 110-1091]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1091
 
THE ISSUE OF POTENTIAL IMPACTS OF GLOBAL WARMING ON RECREATION AND THE 
                          RECREATION INDUSTRY

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
61-967                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 24, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     3
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   111

                               WITNESSES

Scott, Daniel, Canada research chair, Global Change and Tourism, 
  Department of Geography, University of Waterloo................     8
    Prepared statement...........................................    10
    Responses to additional questions from Senator Boxer.........    21
Campion, Tom, founder, Zumiez, Inc...............................    25
    Prepared statement...........................................    27
Huskins, Betty, chair, Southeast Tourism Policy Council, 
  AdvantageWest..................................................    67
    Prepared statement...........................................    69
Watson, Bryant M., executive director, Vermont Association of 
  Snow Travelers, Inc............................................    71
    Prepared statement...........................................    73
Crandall, Derrick A., president, American Recreation Coalition...    75
    Prepared statement...........................................    77
Berry, Michael, president, National Ski Areas Association........    82
    Prepared statement...........................................    84
McCahill, Barry W., president, SUV Owners of America.............    86
    Prepared statement...........................................    87


THE ISSUE OF POTENTIAL IMPACTS OF GLOBAL WARMING ON RECREATION AND THE 
                          RECREATION INDUSTRY

                              ----------                              


                        WEDNESDAY, MAY 24, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
room 406, Dirksen Senate Office Building, the Hon. Barbara 
Boxer (chairman of the committee) presiding.
    Present: Senators Boxer, Lautenberg, Sanders, Klobuchar, 
Whitehouse.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The meeting will come to order. I am very 
pleased to welcome the witnesses here today to discuss the 
impacts that global warming may have on outdoor recreation.
    Outdoor recreation is one of life's greatest blessings. It 
is also an important economic engine for the United States. We 
have a very distinguished panel here, and if you give me a 
minute, I want to introduce some people that have come along 
because of their great interest in this subject.
    I don't know if Senator Inhofe is coming today, but I want 
the word to go out if he does, I have a little global warming 
gift for him. He got me a global warming mug, which when you 
put hot water in it, the whole world melts away.
    [Laughter.]
    Senator Boxer. I have another really very nice gift for 
him. I hope he comes.
    I am just looking for my papers here, and I found them, 
because we do have some special people. Today on our witness 
list we have Dr. Daniel Scott, Canada research chair, Global 
Change and Tourism, Department of Geography, University of 
Waterloo; and Michael Berry, president of the National Ski 
Areas Association.
    Where is Tom? Tom, I missed you. Tom Campion is founder of 
Zumiez; Bryant Watson, Vermont Association of Snow Travelers; 
Betty Huskins, chair of the Southeast Tourism Policy Council, 
AdvantageWest; Derrick Crandall, president, American Recreation 
Coalition; and Barry McCahill, president, SUV Owners of 
America.
    I wanted to point out that Mr. Campion is accompanied by 
members of the Action Sports Environmental Coalition. I want to 
introduce these people to you and ask them to stand as I read 
their name. We have world class skateboarder Bob Burnquist. 
Bob, welcome. We have former pro-snowboarder Circe Wallace. We 
welcome you.
    We have X-Games winner Jen O'Brien. We welcome you. We have 
executive director of the Action Sports Environmental Coalition 
Frank Scura; and we have the director of the Bob Burnquist 
Global Cooling Challenge, Scott Murray with us as well.
    So we just want to make sure the record showed you were 
here. If you have anything that you want to put into the record 
by way of statements, I will leave the record open until the 
end of the day today.
    So we know that outdoor recreation is something we have all 
had a chance to take advantage of, and we want it for future 
generations. We cherish the ability to spend time outside 
visiting our parks and forests, our oceans and beaches, and our 
mountain landscapes.
    Senator Lautenberg, will you sit here in Senator Baucus's 
seat?
    Senator Lautenberg. My pleasure, Madam Chairman.
    Senator Boxer. Thank you.
    Some of us like to play golf. Some of us like to swim and 
fish. Some of us like to ski and use snowmobiles. Many of us 
enjoy touring our national parks and relaxing beside our 
beautiful coastlines. These activities sustain us and our 
culture, and contribute immensely to our overall well being. 
They also contribute a great deal to our national economy.
    Global warming can have a profound and negative impact on 
our outdoor recreation opportunities and businesses. We are 
already seeing decreases in the amount of snowpack in certain 
western areas of the United States. According to a 2004 study 
by the University of Washington, from 1950 to 1997, in some 
areas of Oregon, western Washington and northern California, 
snow packs shrank by 50 percent to 75 percent, with the 
dominant factor being global warming.
    Decreases in snowpack in the northern Rockies during that 
period range between 15 percent and 30 percent, and it is clear 
that many glaciers are melting in our national parks, including 
at Glacier National Park. According to the U.S. National 
Assessment, a major scientific review drafted by a team of 
leading experts from government, universities, industry and 
other institutions, the length of the snow season decreased by 
16 days from 1951 to 1996 in California and Nevada.
    These decreases in snowpack and in the length of the snow 
season can directly impact activities like skiing and 
snowmobiling, which are key aspects of outdoor winter 
recreation.
     Outdoor recreation is serious business as well. In 2006, 
national tourism-related sales amounted to $1.2 trillion--$1.2 
trillion--and were responsible for over 8 million jobs. Around 
here, we have a lot of voices calling for more jobs. Senator 
Sanders has been one of our leaders on this. Here we have an 
industry that is responsible, Senator, for 8 million jobs.
    International travel, which ranks ahead of agriculture and 
automobile production as a net export, accounted for $107.4 
billion in sales. For California, direct spending in 2006 
provided $94 billion and supported more than 900,000 jobs.
    Senator would you move up and sit next to Senator 
Klobuchar? This is called instant seniority. Don't let it go to 
your head.
    [Laughter.]
    Senator Boxer. The Intergovernmental Panel on Climate 
Change has recently said that it is virtually certain that 
warmer temperatures will have effects on winter tourism. The 
IPCC's second report this year said that warming in western 
mountains is projected to cause decreased snowpack, and that 
snow and length of snow depth are very likely to crease in most 
of North America.
    The IPCC also found that coastal communities and habitats 
will be increasingly stressed by climate change impacts.
    Global warming is the greatest challenge of our time, and 
if left unchecked it will have a negative effect in many areas 
of our lives and businesses. Outdoor recreation is perhaps one 
of the first and most obvious aspects of our lives that global 
warming will touch, but many others will follow.
    It is up to us to face this challenge squarely and act 
immediately to avert the worst effects of global warming. Our 
ability to continue to enjoy the great outdoors in the many 
ways we have learned to love and cherish it, and the many ways 
we enrich our lives beyond compare, is placed at risk by global 
warming. In addition, many businesses and millions of jobs in 
the recreation industry are threatened by global warming.
    I know that we as a Nation and as a world will rise to meet 
this challenge, and we will be better off in every way. The 
window is closing and we need to act now. The reason I wanted 
to have this particular industry before us is they are sounding 
the alarm.
    Once again, I want to welcome all the witnesses. I am so 
pleased to have so many of my colleagues from our side here 
today. I hope that the Republican side will come as well. In 
order of arrival, I would call on Senator Klobuchar for her 
opening remarks.

STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Klobuchar. All right. It is great to be here with 
all of you. Thank you for coming.
    Whether it is fishing, biking, hunting, bird watching, 
snowmobiling, skiing, outdoor sports are a big part of what 
Minnesota is all about. It is also a big part of our economy. 
Each year, Minnesotans spend more than $1.8 billion on outdoor-
related recreation. I guess I would ask if I could pose a 
question to our Chairwoman. I will have to pose it.
    Chairwoman Boxer, I have a question about Minnesota sports 
for you.
    Senator Boxer. OK.
    Senator Klobuchar. How much money do you think we spend on 
worms every year in Minnesota?
    [Laughter.]
    Senator Boxer. I have to Google that information.
    [Laughter.]
    Senator Klobuchar. It would be $50 million we spend on 
worms and bait. I think we might lead California on that one. 
But it is just an example.
    Senator Boxer. I will give you that title.
    [Laughter.]
    Senator Klobuchar. But it is a wonderful example of how the 
outdoors are such an important part of our economy in 
Minnesota. I can tell you that those that participate in all 
kinds of sports across our State are getting increasingly 
concerned about warmer winters and about climate change.
    There is a couple out on Leech Lake who care about this 
issue because it has taken them a month longer to get their 
fishhouse out for ice fishing. I have heard it from high school 
ski coaches who are having trouble recruiting skiers to their 
sport because of the lack of snow. I have heard it from 
snowmobile clubs in Detroit Lakes, who are upset because the 
time period when they can use their snowmobiles is shrinking.
    It is not just about winter sports. It impacts us across 
the board. There are hunters and anglers in Hibbing, MN who 
care about the issue because they have seen the changes in our 
wetlands and our wildlife. Some of the most prized fish, like 
brook trout in northern Minnesota, are coldwater fish. These 
fish need clear, cold, surface runoff water to thrive. 
Currently, models done by the University of Minnesota-Duluth 
predict that prize coldwater fish will disappear as the water 
temperature in Lake Superior continue to rise. At the moment, 
that lake is at record high temperatures.
    If rising temperatures and lower lake levels harm fish 
populations and change wildlife patterns, it is going to have 
serious implications for recreation in Minnesota.
    So I would end by saying that this is an issue that has 
finally moved out of the science labs and seminar rooms of our 
universities, and it has entered the everyday conversation of 
people from all walks of life. People from our State are hoping 
that this Congress will confront the challenge of rising 
temperatures with comprehensive and constructive action. Our 
State has done that. We passed one of the most aggressive 
renewable portfolio standards in the country for electricity, 
signed into law by our Republican Governor. I admire the 
courage of our State and California and Arizona and New Jersey 
and other States that are taking the lead on this, but States 
are supposed to be the laboratories of democracy. They are 
supposed to be courageous. But that doesn't mean that we should 
have inaction by the Federal Government.
    So I want to thank you for being here today and being part 
of this important committee as we search for solutions, and we 
can't search for long. It is time to act.
    Thank you.
    Senator Boxer. Senator, thank you so much. This is the 
second time I have heard you talk with eloquence about----
    Senator Klobuchar. About worms?
    Senator Boxer. About worms.
    [Laughter.]
    Senator Boxer. About global warming and its real impact on 
the quality of life of the people in your State. It really 
resonates because if you just think about what it would be like 
if the climate changed dramatically there, it just would be a 
very different place, a different place from the one you grew 
up in.
    Senator Klobuchar. Thank you. I appreciate that. I am going 
to have to leave a little early for another hearing, but I 
think we will have a few questions that we will submit for the 
record. Thank you.
    Senator Boxer. Thank you so much, Senator.
    Senator Sanders.

STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Sanders. Thank you very much, Madam Chair, for 
holding this hearing. I think you are exactly right in saying 
that global warming is the challenge of the time. If we don't 
get it right, the young people who are here today with us are 
going to see a quality of life in this country and around the 
world far inferior to what we enjoy today. It is incumbent upon 
us to address this issue.
    I am just delighted that we have so many articulate guests 
who are going to be explaining the impact of global warming in 
terms of their industries and in their regions of the country. 
I am especially delighted to welcome Bryant Watson, who has for 
many years now been the executive director of the Vermont 
Association of Snowmobile Travelers. In the State of Vermont, 
snowmobiling is not only a significant industry in terms of 
bringing much-needed money into our rural areas, but it is an 
important recreational activity for tens and tens of thousands 
of Vermonters.
    I was mentioning to somebody this morning that one of our 
schools in northern Vermont, the kids drive to school in their 
snowmobiles. They park the snowmobiles outside. It is a family-
based activity and it is a very, very good thing for people in 
the State of Vermont and for the kind of revenue that we 
generate when out of staters come to the State.
    As Mr. Watson will tell you, we have had some very, very 
rough winters in recent years. The result of those rough 
winters, those winters without snow, have been that people in 
the snowmobile industry, people in our skiing industry, have 
lost substantial sums of money. People are not coming to the 
State of Vermont to ski, to snowmobile, when there is not snow, 
and in recent years there have been winters without significant 
amounts of snow.
    So when we talk about global warming, when we talk about 
droughts, and we talk about the loss of glaciers and 
permafrost, and forest fires, let us not forget what global 
warming is meaning not just in the future, but today for the 
income and the way of life of millions and millions of 
Americans who enjoy wintertime activities.
    So I just want to thank you, Madam Chair, for holding this 
important hearing, and welcoming our guests here. I look 
forward to hearing what they have to say.
    Senator Boxer. Thank you, Senator Sanders.
    Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, for holding 
today's hearing. We are about 24 hours from a holiday weekend. 
The climate will make a huge difference in how people enjoy 
themselves and what kind of recreation they have. I am a tree 
hugger from way back. As a matter of fact, I skied in Vermont, 
I don't want to say before Senator Sanders was born, but 
anyway----
    [Laughter.]
    Senator Lautenberg. I don't know if it was that long ago, 
but many years in Colorado, and I have ski-competitive kids in 
a serious way, and grandchildren who are now expert skiers. I 
belong to the Ski Association, Mr. Berry. If you look back, I 
started skiing in 1946, when I got out of the Army. One of the 
most healthful things that I did was to go skiing and take my 
kids skiing, and learn and teach them that the outdoors is the 
best gymnasium you could find.
    We do go fishing, and sometimes we even catch something, 
but more often than not the fish gets a chance to swim again. 
It means so much. When we talk about a legacy that we would 
like to leave our children and our grandchildren and future 
generations, what could be better than a balanced climate 
structure.
    Right now, we are still facing doubters who sit--and I am 
sorry that they are absent because I don't like to talk about 
them when they are not here; I like to talk about them when 
they are here--but the fact of the matter is there is still 
doubt. They are throwing up challenges to the fact that there 
is climate change.
    Well, I know that in New Jersey, for instance, people 
descend on the shore and they go to bird watch--thousands and 
thousands of people will go. We have seen declines in species, 
declines in numbers of birds on the flyways. People like to 
hunt and fish. These activities are part of the lives of New 
Jerseyans, but unless we act to end global warming, the future 
of these destinations is in jeopardy.
    Our country's average temperature was 2.2 degrees warmer 
last year than the average temperature throughout the 20th 
century, according to NOAA. These rising temperatures, as I 
note, cause a decrease in the patterns of flying that birds 
take. We have a huge bird population, but a drop in the State's 
overall tourism revenue is quickly noted, and unfortunately in 
serious decline.
    One estimate shows that bird watching, hunting and fishing 
bring $4.1 billion every year into New Jersey alone. Not only 
are we seeing these changes in the spring and summer, but 
climate changes pose a significant threat to our winter 
tourism. Our ski mountains are not very high. The top is in the 
hundreds of feet. I think we have one place that is skyscraping 
high that is 1,200 feet. From the top, you can see the bottom. 
But we have these modest height mountains, but people love to 
be out there. It causes enormous changes in the economy of 
these communities.
    Warmer temperatures in the winter, more rain, less snow, 
more extreme events, avalanches and landslides, which you see 
in the far western States. Ski areas in New Jersey, they are 
low altitudes, will be some of the first to experience rain 
instead of snow, and the change in winter weather forces 
tourists to stay away. It costs workers their jobs and forces 
ski areas to shut down.
    Global warming is causing similar problems across the 
country. In Colorado, recent climate models show that popular 
ski resorts such as Aspen and Vail could lose more than 40 
percent of their snowpack in the coming century. In Montana, 
glaciers in Glacier National Park are melting. The park's 
largest glaciers are about one third of the size they were 200 
years ago, one third of the size.
    When it comes to impacts of global warming, this committee 
has heard from scientists. We have heard from businesses. We 
have heard from our cities and States. We are very appreciative 
of the leadership that our Chairman has provided. She is there 
challenging whatever sits as a condition that needs to be 
changed, that needs to be examined, and we do it vigorously. I 
am grateful to Senator Boxer for doing these things, and 
reminding us that there is more than just the budgets and 
things of that nature. We cannot forget nature and the human 
contact with nature.
    Six years ago, I went down to the South Pole. I have been 
up to the Arctic to see what was happening with the ice melt 
there. I met with the National Science Foundation people. It 
was painful, because you could hear the ice plates shifting, 
and it sounded like groaning. When you see what it means for 
the penguin growth to be sustained and present, and recognize 
that they have to go further and further to find food to bring 
back to their young. The ice melt--we have seen these floes the 
size of States. Rhode Island, unfortunately, has been picked 
out as a place that resembles in size one of the ice floes that 
have seen.
    So Madam Chairman, we thank you and we are all determined, 
as you are, to continue our fight against the loss of these 
precious assets that this country has.
    Senator Boxer. Thank you so much, Senator.
    Senator Whitehouse.

  STATEMENT OF HON. SHELDON WHITEHOUSE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair.
    I just want to remark on something that Senator Lautenberg 
said, which I think is so important. Whether you are ice 
fishing in Minnesota, with worms, or snowmobiling in Vermont or 
bird watching in New Jersey, or surfing in California, or 
fishing in Narragansett Bay in Rhode Island, these 
opportunities for families to have experiences in the outdoors 
are the jewels, really, of family memory. Sometimes these are 
things that grandchildren do with their grandparents. When they 
grow up, they pass it on to their grandchildren themselves. It 
is the favorite fishing spot. It is the favorite skiing spot.
    So there is a lot at stake here that comes in under the 
science. I think the point that Senator Lautenberg made along 
those lines is something we really have to bear in mind. I have 
the good fortune to be married to a marine biologist, a 
scientist, so I spend a lot of time in the scientific 
community. One of the things that I noticed, or learned early, 
is how small a difference can make how big a difference.
    Years ago, the guy who does most of the work on 
Narragansett Bay on bay temperatures and so forth, we were 
sitting with him and talking about various things. He said that 
in the last I think it was 30 years, the temperature of 
Narragansett Bay has gone up 4 degrees. Well, I swim in all 
kinds of weather in the ocean. Four degrees doesn't seem to 
make a very big difference. So I challenge him. I said, well, 4 
degrees isn't much; I can't really tell the difference between 
62 degrees and 66 degrees when I am swimming; it is just cold.
    He said, no, you don't understand. From an ecological point 
of view, that is a full ecosystem shift.
    So things that might not seem to us to be so significant 
immediately, can have enormous consequences in the ecosystem 
that supports these activities.
    Madam Chair, you have done a wonderful job in leading this 
committee, and I am very proud to be with you, and keep 
slugging away.
    Thank you.
    Senator Boxer. Thank you, Senator. Once again, I think you 
put it into human terms because when we talk about recreation 
in America, we are talking about family. We are talking about 
children. We are talking about joy. We are talking about 
health. We are talking about education, too. You don't learn 
everything in the classroom, as you well know.
    So I think this is why we wanted to have this panel, and we 
are going to get to it. Senator Sanders, I was also saying we 
are talking about millions of good jobs that are at stake here.
    The one thing I wanted to announce is that Senator Isakson 
and I are leading a bipartisan codel to Greenland in July. We 
are going to examine the ice condition there, and many 
colleagues already have agreed to go on this trip. We are 
inviting anyone in the Senate who is interested in it. I 
mention that because we are just going to keep doing our work, 
because when people say nothing is happening, nothing is wrong, 
we are going to go where the facts show us exactly what is 
happening, and that is one place, Greenland, where we are going 
to pick up some facts.
    So now we are going to get started with Dr. Scott. It was a 
long time since I mentioned what everyone does on the panel, so 
I will reiterate: Canada research chair, Global Change and 
Tourism Department of Geography, University of Waterloo.

STATEMENT OF DANIEL SCOTT, CANADA RESEARCH CHAIR, GLOBAL CHANGE 
  AND TOURISM, DEPARTMENT OF GEOGRAPHY, UNIVERSITY OF WATERLOO

    Mr. Scott. Thank you, Senators. First of all, let me 
apologize for the state of my voice. I have two daughters who 
are under the age of 4, and it seems impossible to stay healthy 
these days. So hopefully my voice will get through this.
    Thank you for the opportunity to testify before you today 
on this hearing on the implications of global warming in the 
recreation sector. It is an issue that I have personally worked 
on for about 10 years now. It is in my capacity, again, as a 
Canada research chair, but also as the chair of the World 
Meteorological Organization. They have an expert team on 
tourism and climate. I am the chair of that, so it is also in 
that capacity that I speak to you today.
    In my written testimony, I tried to summarize for you the 
scientific literature on this issue that pertains specifically 
to the United States, to give you a reference for that. It is 
based on that scientific literature that I make my summary 
remarks to you this morning.
    First of all, climate change is anticipated to have far-
reaching consequences for the recreation sector. This is 
because both the supply and demand within the recreation sector 
are heavily influenced by weather and climate today. The 
impacts will be particularly significant if high-emission 
scenarios are realized in the coming decades.
    Importantly, to emphasize, climate change represents both a 
risk and an opportunity for this sector. The winners and 
losers, if you will, will vary by market segment. They will 
also vary by geographic region. We are only in the early stages 
of trying to sort out exactly who those winners and losers will 
be, and which areas, which businesses will need the most 
assistance in the future.
    Particularly at risk in this sector by mid-century are the 
winter recreation industries of skiing and snowmobiling, that I 
have done a lot of work on myself. There are known 
vulnerabilities to exist, and some of them have been identified 
already, but throughout the Southeast, the Northeast, the 
Midwest, Rocky Mountain, and Pacific Northwest ski areas, as 
well as California.
    The economic losses in these industries are likely to be in 
the order of billions of dollars. The cultural loss of the 
recreation activities that define some of these regions, 
however, are very difficult to put a monetary value on.
    The Senators have identified several other key 
vulnerabilities, areas where the key recreation or resources 
for recreation will be vulnerable and threatened. Some examples 
already given were the coldwater fishery, particularly at its 
southern margins, but also throughout the Great Lakes and 
Midwest States; specific places like Glacier National Park, 
where its very namesake and one of its principal attractions is 
likely to be lost; and areas such as California, Las Vegas and 
other areas where we have limited water resources that may 
actually preclude some of the climate adaptations that we are 
stressing such as snow-making and golf course irrigation, as 
two examples.
    Most of the potential opportunities associated with global 
warming in this sector will accrue to the northern States, 
largely in the form of extended summer recreation seasons from 
a climate perspective. Consequently, there is the potential for 
a net northward shift in recreation spending, as those in 
northern States spend their recreation dollars closer to home, 
taking advantage of some of those extended summer recreation 
seasons, and also have less demand for golf and beach trips 
further south during the winter months.
    Because climate is changing and we are committed to some 
amount of further warming regardless of how successful we are 
on mitigation, adaptation will be necessary to minimize damages 
and capitalize on any opportunities that may present 
themselves. This is already happening at the individual 
business and community level in an ad hoc manner. A few example 
are a few years ago, I was contacted by a California investment 
company looking to buy a Colorado ski resort, and they wanted 
advice in a climate change context. I personally know of banks 
both in Europe and here in North America who are already 
adapting their lending practices to ski areas.
    Some communities, as was identified, Aspen and recreational 
organizations as one example, the Wildlife Society, are also 
beginning to do their own research to figure out what their 
options are in terms of adapting to a warmer world.
    There is tremendous adaptive capacity in the recreation 
sector. However, we need to develop much better information to 
provide businesses and communities with as much lead time as 
possible to adapt to climate change in an economically and 
environmentally sustainable manner. This information, in my 
opinion, is needed sooner, rather than later, because although 
we generally think of climate change impacts as far out into 
the future, a number of the impacts that I highlighted for you 
in my written testimony will actually take place in my working 
career, and at most within my lifetime.
    So it is not just future generations that are going to have 
to cope with climate change, but indeed some of the generation 
that you see sitting before you today.
    With that, I thank you for your time.
    [The prepared statement of Mr. Scott follows:]

  Statement of Daniel Scott, Canada Research Chair, Global Change and 
        Tourism, Department of Geography, University of Waterloo

                              INTRODUCTION

    In its Fourth Assessment Report, the United Nations Inter-
governmental Panel on Climate Change (2007) indicated that some degree 
of climate change was inevitable in the 21st century regardless of the 
success of international efforts to reduce greenhouse gas emissions. As 
a consequence, societies around the world will need to adapt to some 
magnitude of climate change in the decades ahead, adjusting human 
systems in order to moderate potential damages or realize new 
opportunities. Climate change was recognized by the United States 
National Research Council (on behalf of the National Science 
Foundation) as one of eight ``grand challenges'' in the environmental 
sciences (Committee on Grand Challenges in Environmental Sciences, 
2001). Of particular importance, the Council noted, is the need for 
improved assessment capabilities with regards to the impacts of climate 
change on human and natural systems.
    One economic sector in which climate change is anticipated to have 
considerable consequences is that of outdoor recreation, because it is 
highly influenced by climate. Climate defines the length and quality of 
multi-billion dollar outdoor recreation seasons, such as skiing, 
snowmobiling, golf, boating, and beach use, which subsequently 
influence sales of related sporting equipment and also tourism related 
spending. Climate also affects a wide range of environmental resources 
that are critical to the recreation sector, such as snow conditions, 
wildlife productivity, and water levels, and affects various facets of 
recreation operations (e.g., snowmaking or irrigation needs, open fire 
or swimming bans). Despite the importance of weather and climate to 
outdoor recreation, the sensitivity of individual recreation industries 
to climate variability the complexities of the interactions between 
climate change and recreation sector have not been adequately assessed 
to date.
    It is beyond the scope of this testimony to provide a comprehensive 
assessment of the implications of climate change for the recreation 
sector of the United States, instead illustrative examples of the 
implications of projected changes in climate are provided for a variety 
of participation land, water and snow-based outdoor recreation 
activities, including hunting, fishing, park visitation, golf, boating, 
beach use, skiing, and snowmobiling.

                OUTDOOR RECREATION IN THE UNITED STATES

    Demand for outdoor activities in the United States substantial and 
varied geographically. According to the most recent National Survey on 
Recreation and the Environment (NSRE, U.S. Forest Service, 2000), 97.5 
percent of Americans aged 16 and over participate in some form of 
outdoor recreation at least once per annum. When Americans participate 
in outdoor recreation, they spend money and create jobs while at the 
same time improving their physical and mental health. A recent 
assessment of the `Active Outdoor Recreation Economy' estimated that 
this sector has an annual economic contribution of $730 billion and 
supports over 6.5 million jobs (Southwick Associates 2006). This 
suggests that if substantive climate change impacts (positive or 
negative) occur in this sector, the economic implications are not 
likely to be trivial.

  IMPLICATIONS OF CLIMATE CHANGE FOR OUTDOOR RECREATION IN THE UNITED 
                 STATES: A REVIEW OF EMPIRICAL EVIDENCE

    As in the National Survey on Recreation and the Environment (U.S. 
Forest Service, 2000), this discussion is organized into three 
sections, covering land-based, water-based, and snow and ice-based, 
recreation activities. Where possible, existing empirical analyses of 
the potential impacts of climate change on specific recreation 
activities are summarized; where no such investigations are available, 
broad-level implications are conjectured. As indicated, climate change 
would have both direct and indirect impacts on recreation activities--
direct, through changes in climatic conditions such as temperature and 
precipitation, and indirect via the impacts of these climatic changes 
on the natural resources base. Both types of impacts are considered in 
the discussion below.

Land Based Activities
    Land based activities constitute the largest category of outdoor 
recreation participation (U.S. Forest Service, 2000), and, in many 
cases, the positive experience of such activities is contingent upon 
one or more elements of the landscape (flora, fauna, and/or natural 
scenery) in which they occur. Despite the large numbers of Americans 
engaging in such activities, the relatively narrow range of atmospheric 
conditions in which they ideally occur, and the potential impacts of 
projected climate change on both atmospheric and environmental 
conditions, there appears to have been limited research into the likely 
impacts of climate change on patterns of participation. Studies 
addressing the potential implications of climate change for camping, 
hunting, viewing wildlife and natural scenery, and golf, are summarized 
below.

            Camping
    According to the National Sporting Goods Association (2005), over 
55.3 million Americans aged seven or older went camping once or more in 
2004, making this the second most popular of the sporting activities 
this agency monitors. While styles of camping may vary considerably, 
from large recreational vehicles with all modern conveniences, to back-
country and wilderness locations with no facilities provided, most 
camping trips are impacted by weather conditions to a lesser or greater 
extent. Loomis and Crespi (1999) and Mendelsohn and Markowski (1999) 
concurred that at the national-level increases in temperature (from 1.5 
C to 5 C) and precipitation (from 0 percent to 15 percent) would have 
a negative impact on the numbers of people participating in, and the 
welfare value generated by, camping. Key limitations of both of these 
studies are that they fail to take into consideration regional 
variations in seasonal activity patterns or climate change scenarios 
and thus provide no information on regions that may see reduced or 
increased camping activity. Illustrative of the regionally specific 
impacts on camping seasons are studies in southern Canada that are 
latitudinal (and climatological) equivalents to northern states in New 
England or the Midwest, which project an extension of the camping 
season in the spring and fall shoulder seasons and increases in camping 
related revenues (23 percent to 36 percent by the 2050s--Wall et al. 
1986).

            Hunting
    According to the National Survey of Fishing, Hunting, and Wildlife-
Associated Recreation (U.S. Fish and Wildlife Service, 2002), over 13 
million Americans aged 16 or older spent over 228 million days and 
nearly $22 billion on hunting-related activities in 2001. The Wildlife 
Society (2004) has examined the potential impacts of climate change for 
wildlife in North America and concluded that wildlife managers, 
including those who manage wildlife populations for recreational 
hunting, cannot ignore the important implications.
    According to Mendelsohn and Markowski (1999), climate change 
(increases in temperature from 1.5 C to 5 C and in precipitation from 
0 percent to 15 percent) is unlikely to have any significant impact on 
the welfare value generated by hunting activity in the U.S. over the 
next 50 years. While the total value of hunting within in the U.S. may 
indeed remain relatively unchanged under warmer, wetter conditions, 
considerable geographic shifts in hunting activity should be 
anticipated as a result of changes in the geographic distribution and 
relative abundance of species. Vegetation modeling studies on the 
impacts of climate change on terrestrial vegetation have consistently 
projected major shifts in vegetation types over much of the continent 
(Neilson, 1998; Cramer et al., 2001), with interconnected impacts on 
wildlife habitat. Thomas et al. (2004, p. 147) stated that, ``Despite 
the uncertainties. . .the overall conclusions. . .establish that 
anthropogenic climate warming at least ranks alongside other recognized 
threats to global biodiversity [and] contrary to previous projections, 
it is likely to be the greatest threat in many if not most regions.'' 
Indeed, a series of meta-analyses (Parmesan and Yohe, 2003; Root et 
al., 2003) have compiled evidence that physical and biological systems 
are already responding to the changing climate of the twentieth 
century.
    Loomis and Crespi's (1999) analysis of the potential impact on 
waterfowl hunting suggested there would be virtually no change in 
hunter days in the U.S., however this analysis only considered the 
implications of climate change for the future availability of wetlands 
on the east coast of the U.S., while implications for the single most 
important waterfowl habitat region in North America, the prairie 
pothole region, were overlooked. The prairie pothole region is one of 
the most productive waterfowl regions in the world and although it only 
represents an estimated 10 percent of waterfowl breeding habitat in 
North America, the region produces 50-80 percent of the continents 
ducks annually (Batt, Anderson, Anderson, & Caswell, 1989). Some 
anticipated ecological impacts of climate change in this region 
include: fewer wetlands on average; shorter flooding duration for 
wetlands; greater annual variability in surface water; changes in 
agriculture and waterfowl food supply; and changes to water depth, 
salinity, temperature, plants, and aquatic food webs. A study by 
LeBlanc et al. (1991) estimated that the impacts of climate change 
would bring about a decline of 22 percent in duck productivity in North 
Dakota and concluded that this result could be approximated to the 
entire prairie pothole and parkland region of the U.S. and Canada. Had 
Loomis and Crespi (1999) used this region as the basis for their study, 
the outcome would have been significantly different.

            Viewing wildlife and natural scenery
    The viewing of wildlife and natural scenery is a broad category 
that encompasses a variety of activities in a variety of settings. In 
2001, over 66 million Americans aged 16 or older spent over $38 billion 
on wildlife watching activities (U.S. Fish and Wildlife Service, 2002). 
Eagles et al. (2000) estimated that over 2.6 billion visitor days were 
spent in national-state parks and protected areas in the U.S. and 
Canada in 1996.
    An ongoing study of the potential implications of climate change 
for national park visits illustrates that there are likely to be very 
different regional impacts (Hyslop and Scott 2007). Recreation 
activities in many of the parks in the northern U.S. are constrained by 
winter conditions, and with a lengthened and improved warm-weather 
recreation season, visitation to national-state parks in these regions 
are expected to increase. For example, Acadia national park was 
projected to have increased visitation of between 4-6 percent in the 
2020s and 7-18 percent in the 2080s and Cuyahoga Valley increases of 3-
8 percent in the 2020s and 6-22 percent in the 2080s. Other national 
parks projected to experience potentially large increases in visitation 
were Rocky Mountain, Yosemite, and Olympic. Conversely, some national 
parks in southern and desert states were projected to have reduced 
visitation, including Everglades, Mesa Verde, and Saguaro. Notable, the 
negative impact on visitation levels in these parks was not as great as 
the increase in other more northerly parks. Increased visitation would 
have benefits for park revenues and the economies of nearby 
communities, but could exacerbate visitor-related ecological pressures 
in some parks. The implications of a changed climate for park 
visitation in more southern regions of the U.S. remain uncertain 
however.
    Although the direct impacts of a changed climate alone may increase 
visitation to some parks, the environmental changes resulting from 
alterations in climate may reduce the attractiveness of the landscape 
to the extent that visitation may be adversely impacted. Two studies 
have assessed the potential impacts of climate-induced environmental 
change in the Rocky Mountain region. Richardson and Loomis (2005) asked 
visitors to Rocky Mountain National Park how their visitation patterns 
(number and length of stays) might change under a series of 
hypothetical environmental change scenarios for the 2020s. Scott et al. 
(2007) used a similar approach in Glacier-Waterton Lakes International 
Peace Park, where they asked tourists to consider three hypothetical 
environmental change scenarios (for the 2020s, 2050s and 2080s) and 
indicate whether they would still visit the park and, if so, more or 
less frequently.
    Richardson and Loomis (2005) found that the majority of respondents 
indicated that they would not change their visitation patterns to Rocky 
Mountain National Park under the three scenarios provided. The changes 
in visitation behavior resulted in a 10 percent to 14 percent increase 
in annual visitation under the first two scenarios, while the `extreme 
heat' scenario caused a 9 percent decline in visitation. The findings 
of Scott et al. (2007) in Glacier-Waterton International Peace Park for 
the 2020s were largely consistent with those of Richardson and Loomis 
(2005). Under the 2080s scenario, however, 19 percent of respondents 
reported that they would no longer visit the park and, of the 81 
percent who would still visit, 37 percent stated they would do so less 
often. The loss of glaciers in the park was the most important reason 
cited for not intending to visit the park in the future.
    Landscape change in parks is likely to be personally meaningful to 
many Americans and therefore presents an educational opportunity via 
interpretive programs. For example, while the loss of Glacier National 
Park's namesake would be a significant heritage loss, it could serve an 
important educational role to inform visitors about climate change.
    Bird watching has undergone tremendous growth over the past 30 
years in the U.S. Participation in birding among Americans grew 232 
percent between 1983 and 2001 (Cordell and Herbert 2002) and today 
there are over 70 million bird watchers in the United States. Of the 51 
recreational activities currently tracked through the U.S. National 
Survey on Recreation and the Environment, birding represents the 15th 
most popular activity (U.S. Department of the Interior, Fish and 
Wildlife Service 2001). Avitourism is a significant and growing tourism 
market. In 1996, over U.S. $6 billion was spent on trips associated 
with birding in the United States (American Birding Association 2002). 
The number of communities organizing birding festivals has increased 
from 12 in 1993 to over 200 in 2002 (Cordell and Herbert 2002) and 
birding travel routes are being established to attract avitourism.
    Bird species can be affected by climatic changes in a number of 
ways, including changes in their habitat range, availability of food 
sources at certain times of the year, the timing and path of 
migrations, and nesting behaviour. Research suggests that climatic 
changes during the 20th century have already had a discernable impact 
on bird populations in North America (Price and Glick 2002) and Europe 
(Lemoine and Bohning-Gaese 2002). Climate change in the 21st century is 
projected to further impact the distribution and diversity of bird 
populations in North America. Price and Root (2001) argue that the 
number of neotropical migrant species present in the U.S. would decline 
under projected climate change, with the largest species losses in the 
Eastern Midwest (^30 percent), Great Lakes (^29 percent), Mid-Atlantic 
(^23 percent), and Southeast (^22 percent) regions. With an estimated 
one in every three of North American songbirds born in Canada's boreal 
forest Blancher 2002), the projected decline and retreat of the 
southern boreal forest due to climate change (Hogg and Hurdle 1995, 
Scott et al. 2002) has important implications for songbird populations. 
The degradation or loss of critical habitats (particularly key 
wetlands) could have a significant impact on birding destinations. The 
increased rarity of some species could however generate increased 
tourism, as birders travel further in search of these species.
    Climate change impacts on the vegetation and hydrology of the New 
England and Midwest states could also impact recreation associated with 
fall foliage (leaf colour touring) that currently a highly popular and 
economically valuable activity in these regions. Fall colour 
sightseeing draws visitors from across the U.S. (Andrews 1999) and 
would be negatively affected by the projected decline in maple trees 
(which provide the bright red colour essential to spectacular fall 
landscapes) and a greater abundance of less colourful tree species. 
Vegetation modelling has projected the maple- beech-birch forest type 
that currently dominates the region would be replaced by the oak-
hickory forest type under climate change conditions (Iverson and Prasad 
1998). How people respond to changes in forest landscapes remains an 
important uncertainty in determining the vulnerability of fall tourism 
in this region (U.S. National Assessment-NE regional report 2000).

            Golf
    The golf industry is one of the largest recreation sectors in U.S. 
and one that is highly influenced by weather and climate. There are 
approximately 20,000 golf courses (World Golf Foundation, 2001) and 
according to the U.S. Census Bureau (2004), 27.6 million golfers 
(persons aged 12 or older who played one round or more) played 552 
million rounds of golf in 2001. In 2000, golf accounted for $62 billion 
worth of goods and services in the U.S. and supported over 295,000 paid 
employees, of which $20.5 billion in revenues were generated directly 
at golf facilities, mainly through green fees (World Golf Foundation, 
2002). By comparison, the golf sector is estimated to approximate the 
economic size of the motion picture industry in the United States 
($57.8 billion) (U.S. Census Bureau, 2001).
    Golf industry reports and professional journal articles, the golf 
industries in the United States are very aware of the importance of 
weather and climate to their business. According to the 2001 Golf 20/20 
Industry Report, the single most important factor impacting rounds 
played [both positively and negatively each year] continues to be 
weather (World Golf Foundation, 2001). In a survey of 2,426 golf 
courses in the United States, 52 percent identified climate variability 
as the leading reason for lower than expected rounds played in 2000 and 
2001, while 35 percent cited climatic variability as the primary reason 
for higher than expected rounds played (World Golf Foundation, 2004). 
By comparison, less than 10 percent of golf courses participating in 
the same survey identified the economy or course renovations in 
positively or negatively influencing rounds played. Another analysis of 
golf participation (1,849 golf courses) in the United States also 
identified variations in weather as the primary reason for positively 
(35 percent) and negatively (62 percent) affecting annual rounds played 
in 2003 over 2002 (National Golf Foundation, 2004).
    It is clear that the North American golf industry attributes a 
considerable share of its economic success to weather and climate, yet 
surprisingly very few studies have attempted to assess the empirical 
relationship between weather and climate and the golf sector. The lack 
of research examining the impact of weather and climate on the golf 
industry was acknowledged by the World Golf Foundation (2001) in its 
2001 20/20 Golf Industry Report. The report recommended that more 
analysis of rounds played and weather [and climate] was needed. The 
need for research into the potential impacts of climate change on the 
golf sector has also been acknowledged by the European golf industry. 
Drawing on the input of over 250 stakeholders, including course 
mangers, union leaders and professional organizations, the Golf Course 
Advisory Panel at the Royal and Ancient Golf Course of St. Andrews 
(Scotland) identified climate change as one of six strategic issues 
facing the golf industry over the next 20 years (Royal and Ancient Golf 
Club of St. Andrews, 2000).
    Loomis and Crespi (1999) attempted to project golf participation in 
the United States under climate change scenario. Although they do not 
describe how rounds played were converted into golf days, they 
projected that under the arbitrary climate change scenario they used 
(+2. C/4.5 F; +7 percent precipitation), the U.S. golf industry would 
benefit from a 14 percent increase in golf days in the 2050s. The 
methodology used in this study was limited in that a single climate 
change scenario was applied to the entire country and as such it did 
not take into account climate change uncertainty by examining a range 
of future climates and ignored the regional differences of projected 
climate change in the U.S. More importantly, the study did not 
distinguish local and state-level golf from out-of-state tourism-based 
participation (e.g., golf tourism to states like Florida and Arizona 
from regions where golf courses are closed in winter). The model 
therefore projected increased participation in northern states as 
temperature increased, but did not subtract the diminished flow of golf 
tourists to states that are currently golf destinations in the winter 
months.
    Illustrative of the regionally specific impacts on golfing are 
studies in southern Canada that are latitudinal (and climatological) 
equivalent to northern New England or Midwest states. Scott and Jones 
(2005) examined the influence of weather conditions and climate change 
on the season length and the number of rounds played in southern 
Ontario (Canada). The model projected that as early as the 2020s the 
average golf season could be one to seven weeks longer and with much 
improved shoulder seasons annual rounds played could increase 6 percent 
to 14 percent. The model results for the 2050s projected an increase in 
rounds played of 8 percent to 24 percent. The increase in rounds played 
occurs largely because of more conducive weather conditions that extend 
the golf season up to 16 weeks in the 2080s. Similar magnitude of 
impacts would be anticipated in Michigan and upstate New York and other 
nearby states.
    To assess the full potential impact of climate change on the golf 
industry the implications for a full range of golf course operations in 
regions across the U.S. is needed. A warmer climate would lead to 
greater demand for turf grass irrigation in all regions. With increased 
competition for water in the future, climate change is anticipated to 
exacerbate the challenge of water supply for the industry. This is 
particularly the case in some of the top golf destinations in the U.S. 
that are projected to have acute water supply challenges in the coming 
decades even if climate change does not occur. Another important issue 
for golf operations is the potential impact of climate change on grass 
maintenance issues, such as turf grass selection, turf diseases and 
insect pests. Pests that currently have only one life cycle in northern 
states could adapt to new climate regimes and have two life cycles. 
Perhaps more importantly, there is the potential for turf grass 
diseases and pests currently limited to more southerly latitudes to 
expand into northern states and require new management interventions in 
the future. Future analysis of these operational issues is essential to 
provide insight into the potential ability of golf courses to take 
advantage of the opportunities projected climate change would bring.

Water Based Activities
            Boating
    According to the U.S. Census Bureau (2004), in 2001 Americans owned 
over 17 million recreational boats and made over $28.5 billion of 
retail expenditures on this activity. In the same year, over 4,000 U.S. 
marinas supported close to 25,000 employees and reported revenues in 
excess of $3 billion. Nearly one-third of all registered boaters in the 
U.S. reside in one of the eight Great Lakes states and over 1,800 
marinas exist in Minnesota, Wisconsin and Michigan alone (Lindeberg and 
Albercook, 2000; Sousounis and Albercook, 2000). The potential 
implications of climate change for boating in the Great Lakes region 
are, therefore, of special importance from both an economic and a 
social perspective.
    Nevertheless, despite the size of the boating industry and the 
number of participants involved, the impacts of climate change on 
boating appear not to have been addressed empirically other than in one 
study conducted on a national-level dataset from 1990 (Mendelsohn & 
Markowski, 1999). According to the analyses conducted by these authors, 
climate change is likely to have a positive impact on boating activity, 
with increases in value ranging from $1.1 billion (for a 1.5 C 
increase in temperature, and increases in precipitation from 0 to 15 
percent) to $13.1 billion (for a 5 C increase in temperature, and 
increases in precipitation from 0 to 15 percent). However, these 
figures do not include consideration of the likely negative impacts of 
declining water levels on the Great Lakes and reservoir lakes in the 
western U.S. and thus, may overestimate this positive impact at the 
regional and local level. For example, as a result of recent drought in 
western states, the Colorado River Outfitters Association experienced a 
40 percent decline in business, with an estimated impact of $50 million 
(Associated Press 2002) and water levels in the Lake Mead, the largest 
western U.S. reservoir with 10 million visitors annually, dropped 
nearly 30-meter since 1999. Each six-metre reduction in water level 
costs $6 million for adapting infrastructure (Allen et al. 2003).

            Fishing
    According to the National Survey of Fishing, Hunting, and Wildlife-
Associated Recreation (U.S. Fish and Wildlife Service, 2002), over 34 
million Americans aged 16 or older spent over 557 million days and $36 
billion on fishing-related activities in 2001. The majority of anglers 
(83 percent) fished in freshwater (including the Great Lakes), compared 
to 27 percent in saltwater. The American Sportfishing Association 
(2001) estimates the value of freshwater sport fishing and the 
associated tourism market to exceed U.S. $11 billion in North America.
    A limited number of studies that have investigated the potential 
impacts of climate change on recreational fishing in North America. 
Wall (1998) provided an overview of the implications of global climate 
change for tourism and recreation in wetland areas, including those for 
fishing. For marine wetlands, he listed inundation, erosion and 
saltwater intrusion as three key negative impacts of rising sea levels, 
whereas for inland wetlands, declining water levels and loss of wetland 
species were noted. Such changes have important implications for water 
supply and equality, as well as the distributions of vegetation, 
wildlife (and, hence, wildlife viewing and hunting), and fish (and 
fishing). Wall identified the most threatened coastal and inland 
wetland areas as the coastal wetlands of Louisiana, and the Great 
Lakes, respectively.
    A number of cold-water fish species are particularly sought by 
anglers. Studies of the potential impact of changes in water 
temperatures for selected cold-water species have projected negative 
impacts throughout the United States, including the lower Great Lakes. 
The U.S. Environmental Protection Agency (1995) quantified the 
potential economic impact of the projected losses of 50 percent to ^100 
percent loss in cold-water fish habitat in the Great Lakes and New 
England states. Their analyses suggested annual economic damages to the 
U.S. sportfishing industry of $320 million by the 2050s. This study 
also found that when alternative modelling assumptions were used, the 
estimated damages increased substantially, suggesting the need for 
further research to narrow the range of uncertainty.
    A study of the impact of climate change on the recreational trout 
fishery in the southern Appalachian Mountains of North Carolina found 
that the decrease in thermal habitat for trout (82 percent of streams 
would no longer support brook trout) would result in an annual economic 
loss of $61-584 million (1995 dollars) (Ahn et al. 2000). Similar 
research on the thermal habitat for salmonid species in the Rocky 
Mountain region of the United States found that the projected 4 C 
summer warming in the region would reduce habitat area by an estimated 
62 percent (Keleher and Rahel 1996). In contrast, smallmouth bass, a 
popular warm-water sport fish species, was projected by Casselman 
(2002) to increase substantially in the eastern Lake Ontario area (a 1 
C warming = 2.5 times increase in abundance, 2 C warming = 6 times 
increase).
    The cumulative impact and regional vulnerability of the North 
American sportfishing industry to climate change has not been 
completed, nor has there been a rigorous analysis of the potential 
adaptation strategies (e.g., lake stocking strategies, angler choice of 
species).

            Beach Recreation
    Coastal zones are among the most highly valued recreational areas 
and are primary resources for the economy of communities that exploit 
the sea, sun and sand for recreation. Climate change has important 
implications for coastal areas both through the redistribution of 
climate resources for beach use and the possible inundation of 
recreation beaches by sea level rise. An early study of beach 
nourishment as an adaptation strategy to preserve major recreational 
beaches throughout the United States estimated the cost at $14.5 
billion for a 50cm sea level rise and $26.7 billion for a 1 metre sea 
level rise (Smith and Tirpak 1990). A regional study in Florida by the 
U.S. EPA (1999) reported that a 60cm sea level rise would erode beaches 
in parts of south Florida 30 to 60 metres unless beach nourishment 
efforts were expanded. The cumulative cost of sand replenishment to 
protect Florida's coast from a 50cm rise in sea level by 2100 is 
estimated at $1.7 to $8.8 billion (EPA 2003).

            Diving
    The reefs of the Florida Keys support a large diving and fishing 
industry. These activities generated an estimated $4.4 billion in 
revenues in a four-county area of south Florida (Johns et al. 2001). 
Like reef systems around the world, the reefs across this region have 
been under considerable human-induced stress (overfishing, pollution). 
Coral reefs in parts of the Caribbean and Gulf of Mexico have suffered 
an 80 percent decline in cover over the past 30 years (Gardner et al. 
2003). Recent coral bleaching events caused by high water temperatures 
and scenarios for future water temperatures in the region project an 
imperiled future for coral reefs and related recreational diving in the 
region.

Snow and Ice Based Activities
            Skiing
    Snow-based recreation in the United States, encompassing downhill 
(alpine) skiing and snowboarding, cross-country (nordic) skiing, and 
snowshoeing, was recently estimated to contribute an estimated $66 
billion to the U.S. economy and support approximately 556,000 jobs 
(Southwick Associates 2006). Just over 8 percent of the U.S. population 
(15.5 million people) participate in these forms of snow-based 
recreation.
    The ski industry has been repeatedly identified as being 
particularly vulnerable to climate change and studies on the ski 
industry in the U.S. (Lipski and McBoyle 1991; Hayhoe et al. 2004; 
Casola et al. 2005, Reuer 2006) have each projected negative impacts, 
though to varying degrees and over different time horizons. While not 
all ski industry executives share his view, Patrick O'Donnell, the 
Chief Executive Officer of Aspen Skiing Company, recently referred to 
climate change as ``the most pressing issue facing the ski industry 
today'' (Erickson 2005).
    Considering only changes in natural snow conditions, the ski season 
in the Sierra Nevada of California was projected to 3-6 weeks (2050s) 
and 7-15 weeks (2080s) (Hayhoe et al. 2004).
    Reuer (2006) modelled potential changes in snow pack in Rocky 
Mountain States in the latter decades of this century, specifically the 
depth of snow on April 1, and projected reductions ranging from 26 
percent in Teton County (Wyoming) to over 80 percent in Salt Lake 
County (Utah), San Miguel County (Colorado) and Taos County (New 
Mexico). It is not clear how such changes in the spring snow pack would 
translate into changes in the ski season length, so statements related 
to this study that the 'ski industry in the Rockies could be shut down 
by 2050' must be considered speculation at this time. Furthermore, 
these U.S. studies have a very critical limitation, in that the 
widespread climate adaptation of snowmaking has not been accounted for. 
Consequently, these studies of the impact of climate change on ski 
operations have likely overestimated future damages.
    Studies by Scott et al. (2003, 2006, 2007a, 2007b) were the first 
to couple a snowmaking module using climatic thresholds and operational 
decision rules derived from interviews with ski area managers into a 
physical snow model.. Their studies found that the incorporation of 
snowmaking substantially lowered the vulnerability of ski areas in 
eastern North America through the middle of the 21st century. In a 
recently completed study of 14 clusters of ski areas in the U.S. 
Northeast (Scott et al. 2007), even with the assumption of advanced 
snowmaking systems in place, the climate change scenarios consistently 
projected a trend toward shorter ski seasons.
    Under the lower emission scenario for 2010-2039, only three study 
areas were projected to lose less than 10 percent of the ski season, 
while 10 study areas lost 10-17 percent and only the Connecticut 
location lost more than 20 percent. In 2040-2069, ski season losses 
were not substantially higher, with only the Connecticut location 
projected to lose greater than 25 percent of its ski season. The level 
of climate change impact increased in the 2080s where half of the study 
areas were projected to lose 25 percent or more of their ski season. 
The higher emission scenario had a much greater impact on the length of 
ski seasons in the region, especially in 2040-2069 and beyond. In 2040-
2069, eight of the study areas were projected to lose 25 percent or 
more of their ski season. By 2070-2099 all 14 of the study areas had 
lost at least 25 percent of the ski season and half of the study areas 
lost 45 percent or more.
    In order to limit ski season losses to the levels described above, 
snowmaking requirements were projected to increase throughout the 
Northeast. Under the lower emission scenario for 2010-2039, snowmaking 
requirements would increase by at least 25 percent at half of the study 
areas. In 2070-2099, climate change had distinctly different impacts on 
snowmaking requirements. Five of the study areas were projected to 
require at least 50 percent more snowmaking and increases of 25 to 49 
percent were projected for an additional four locations. The remaining 
five study areas were projected to make the same amount or less 
machine-made snow in 2070-2099 than 2040-2069 due to the inability to 
make snow in unsuitably warm temperatures during the early and latter 
part of the current ski season.
    The higher emission scenario again had a much greater impact on 
snowmaking requirements. In 2010-2039, nine of the study areas were 
projected to require at least 25 percent more machine-made snow. In 
2070-2099, three study areas were projected to require over a 100 
percent increase in machine-made snow and four other locations require 
at 50 to 99 percent more machine-made snow. Snowmaking was projected to 
decline relative to 2040-69 in five locations (West Pennsylvania, East 
Pennsylvania, Southeast New York, West New York, and Connecticut) where 
warm temperature made it unfeasible during parts of the winter months.
    The large increases in snowmaking requirements under climate change 
also raised important questions about the sustainability of this 
critical adaptation strategy in certain locations. Communities and 
environmental organizations have expressed concern about the 
environmental impact of water withdrawals associated with snowmaking. 
Under the higher emission scenario, where a 50-100 percent increase in 
snowmaking was modelled at several locations, water conflicts may be 
heightened and access to water may be a critical constraint for future 
snowmaking. The economic costs of increased snowmaking (energy and 
water costs) were not factored into this assessment because the 
detailed economic information required is not publicly available, and 
this remains a critical uncertainty for the future profitability of ski 
areas in the region.
    Based on this analysis, it would appear that it is not the 
Northeast ski industry that is at risk to climate change but rather 
individual ski businesses and communities that rely on ski tourism. The 
probable consequence of climate change will be a continuation of the 
historic contraction and consolidation of the ski industry in the 
region. It will be the relative advantages of local climatic resources 
and the adaptive capacity of individual ski areas that will determine 
the 'survivors' in an era of climate change. Although projected climate 
change would contribute to the demise of ski businesses in some parts 
of Northeast, it could advantage some of the ski operations that 
remain. Assuming that skier demand declines only to the level observed 
in the climate change analogue winter of 2001-02 (approximately 10 
percent fewer skier visits), then ski businesses in Vermont, Northeast 
New Hampshire, Northeast New York, and West Maine would be in a 
position to gain market share (through diminished competition) and 
potentially offset revenue losses due to reduced ski seasons and higher 
snowmaking costs.
    Large corporate ski conglomerates like Intrawest, the American 
Skiing Company, Boyne USA Resorts and Booth Creek Resorts may be less 
vulnerable to the impacts of climate change than single ski operations 
because they generally have more diversified business operations (real 
estate, warm-weather tourism resorts and four-season activities), are 
better capitalized (so that they can make substantial investments in 
snowmaking systems) and, perhaps most importantly, are regionally 
diversified (which reduces their business risk to poor snow conditions 
in one location).

            Snowmobiling
    According to the International Snowmobile Manufacturers Association 
(ISMA, 2004), there are approximately 1.77 million registered 
snowmobiles in the United States. ISMA estimates the economic impact of 
snowmobiling is equal U.S. $20 billion per annum in the U.S.; over 
85,000 full time jobs are generated by the snowmobile industry in North 
America, including those in manufacturing, dealerships and tourism 
related businesses (ISMA, 2004).
    Due to the long, linear nature of snowmobile trails, snowmaking is 
rarely a viable adaptation option and the snowmobile industry relies 
almost exclusively on natural snowfall. As such, several studies have 
found that snowmobiling is more vulnerable to the negative impacts of 
climate change than is downhill skiing. A recent study of snowmobiling 
seasons in 15 study areas in the Northeast (Scott et al. 2007) found 
that the climate change scenarios consistently projected a trend toward 
shorter snowmobile seasons throughout the Northeast and a northward 
shift in the southern margin of snowmobiling activity. As early as 
2010-2039, four of the 15 study areas are projected to lose more than 
50 percent of their snowmobiling season under the lower emission 
scenario and six locations under the higher emission scenario. The 
majority of the 15 locations examined in this study were projected to 
have marginal or non-existent snowmobile seasons in 2040-2069 under 
both lower and higher emission scenarios. Consequently, the loss of 
snowmobiling activity and related tourism would appear unavoidable in 
the following locations if the climate change scenarios projected for 
2040-2069 were realized: Western New York, North-central Pennsylvania, 
Southeast New York, South-central Pennsylvania, East Pennsylvania, West 
Massachusetts, South New Hampshire, and Northeast New York.
    The implication of a substantial decline in nearby opportunities 
for snowmobile participation remains an important uncertainty. If 
participation remains unchanged or declines only slightly, the few 
locations that are projected to continue to have sufficient natural 
snow for snowmobiling later into the 21st century (North-central New 
York, North Vermont, South Vermont, North New Hampshire, Northeast 
Maine, and Northwest Maine) may be in a position to market their area 
to winter recreation enthusiasts and potentially benefit from a change 
in the competitive relationships between winter recreation 
destinations. Further research is needed to understand the influence of 
distance costs and destination loyalty on changes in snowmobile 
patterns as well as the environmental implications of a greater 
concentration of snowmobile activity on the remaining trails with 
reliable snow conditions.
    Given the projected reductions to an already short snowmobile 
season in much of Northeast, it is possible that snowmobilers may 
choose to discontinue the use of their snowmobile and adopt another 
type of recreational vehicle that is not limited by snow conditions 
(i.e., all-terrain vehicles [ATVs]) or perhaps a completely different 
form of recreation. Growing ATV and declining snowmobile sales in the 
U.S. over the last five years may provide evidence to suggest that the 
transition is already underway in some regions (Suthey Holler 
Associates 2003). If a large number of snowmobilers in the region adopt 
this climate adaptation strategy there would be important implications 
for land managers and communities, including recreational planning and 
infrastructure development, to minimize the environmental impacts of 
trail use by ATVs. Under such a scenario, communities that developed 
recreational trail networks for ATVs might gain a competitive advantage 
over communities that continue to cater to snowmobiles.

                              CONCLUSIONS

    Although the aforementioned examples of potential climate change 
impacts discussed are no means exhaustive, it is clear that climate 
change has far-reaching consequences for U.S. recreation and the 
recreation businesses and industries. Importantly, it must be 
emphasized that climate change will have both negative and positive 
impacts on recreation sector in the U.S. creating both threats and 
opportunities for both participants and recreation providers. There 
will be `winners and losers' at the business and community level, and 
each will need to adapt to climate change but in different ways (e.g., 
adapting to employment and economic losses versus congestion and 
development pressures). As the tourism and recreation section of the 
IPCC (2001) North American chapter (section 15.2.6) concluded, until 
systematic regional and industry level assessments are conducted a 
definitive statement of the net economic or social impacts for this 
sector will not be possible. At the community level, the magnitude of 
the impact of climate change will depend upon the importance of the 
recreation industries in the regional economy, the characteristics of 
climate change and its affect on the natural environment, the adaptive 
response of recreationists, the capacity of recreation businesses adapt 
to climate change, and how the impacts of climate change interact with 
other long-term influencing variables in the recreation sector 
(globalization and economic fluctuations, fuel prices, aging 
populations in industrialized countries, increasing travel safety and 
health concerns, increased environmental and cultural awareness, 
advances in information and transportation technology, environmental 
limitations--water supply and pollution--and so on).
    Finally, because climate change is already entering into 
decisionmaking in the recreation sector it is in the best interest of 
the recreation industry and applicable government agencies (federal, 
state and local levels) to engage in collaborative research to 
determine the potential implications of climate change issue, in order 
to best prepare recreation businesses and communities to minimize the 
risks and capitalize upon the opportunities likely to be brought about 
by climate change in an economically and environmentally sustainable 
manner.

                            REFERENCES CITED

    Ahn, S., De Steiguer, J.E., Palmquist, R.B., & Holmes, T.P. (2000). 
Economic analysis of the potential impact of climate change on 
recreational trout fishing in the Southern Appalachian Mountains: An 
application of a nested multinomial logit model. Climatic Change, 45, 
493-509.
    American Birding Association (2002) The growth of birding and the 
economic value of birders. American Birding Association, Colorado 
Springs, Colorado. http://americanbirding.org/programs.
    American Sportfishing Association. (2001). Sportfishing in America: 
values of our traditional pastime. Alexandria, VA: American 
Sportfishing Association.
    Andrews, S. (1999) Tourism in a warmer Maine. Habitat, 16, 4, 30-
34.
    Batt, B.D.J., Anderson, M.G., Anderson, C.D., & Caswell, F.D. 
(1989). The use of prairie potholes by North American ducks. In A. van 
der Valk (Ed.), Northern prairie wetlands (pp. 204-227). Ames, IA: Iowa 
State University Press.
    Casselman, J. (2002) Effects of temperature, global extremes, and 
climate change on year-class production of warmwater, coolwater, and 
coldwater fishes in the Great Lakes basin. American Fisheries Society 
Symposium, 32, 39-60.
    Committee on Grand Challenges in Environmental Sciences. (2001). 
Grand challenges in environmental sciences. Washington, D.C.: National 
Academy Press.
    Cordell, H. and Herbert, N. (2002) The popularity of birding is 
still growing. Birding, Feb. 54-61.
    Cramer, W., Bondeau, A., Woodward, F.I., Prentice, I.C., Bettes, 
R., Brovkin, V., Cox, P., Fisher, V., Foley, J., Friend, A., Kuckarik, 
C., Lomas, M., Ramankutty, N., Sitch, S., Smith, B., White, A., & 
Young-Molling, C. (2001). Global response of terrestrial ecosystem 
structure and function to CO and climate change: results from six 
dynamic global vegetation models. Global Change Biology, 7, 357-373.
    Eagles, P.F.J., McLean, D., & Stabler, M.J. (2000). Estimating the 
tourism volume and value in parks and protected Areas in Canada and the 
USA. George Wright Forum, 17(3), 62-76.
    Erickson, J. 2005. Bleak forecast for ski industry: warmer temps 
may put resorts in the deep freeze. Rocky Mountain News, 19 March. 
Accessed 24 June 2005, www.rockymountainnews.com.
    Hyslop, K. and Scott, D. (2007 in submission). Climate change and 
visitation to U.S. national parks. Journal of Parks and Recreation 
Administration.
    Lemoine, N. and Bohning-Gaese, K. (2003) Potential impact of global 
climate change on species richness of long-distance migrants. 
Conservation Biology, 17, 2, 577-586.
    Hogg, E. and Hurdle, P. 1995. The aspen parkland in western Canada: 
a cry-climate analogue for the future boreal forest? Water, Air and 
Soil Pollution, 82, 391-400.
    IPCC. (2001). Climate change 2001: Impacts, adaptation and 
vulnerability, contribution of Working Group II to the Third Assessment 
Report of the Intergovernmental Panel on Climate Change. Cambridge, UK: 
Cambridge University Press.
    ISMA. (2004b). Snowmobile Statistics. Retrieved May 28, 2005, from 
http://www.snowmobile.org/snowmobilestatistics.asp.
    Iverson L.R. and Prasad A.M. (1998) Predicting abundance of 80 tree 
species following climate change in the Eastern United States. 
Ecological Monographs 68: 465-485.
    Johns, G., Leeworthy, V, Bell, F. and Bonn, M. (2001) Socioeconomic 
Study of Reefs in Southeast Florida. Final Report for Broward, Palm 
Beach and Miami-Dada and Monroe Counties. Florida Fish and Wildlife 
Conservation Commission and National Oceanic and Atmospheric 
Administration.
    Jones, B. and Scott, D. (2006) Climate Change, Seasonality and 
Visitation to Canada's National Parks. Journal of Parks and Recreation 
Administration, 24 (2), 42-62.
    Keleher, C. and Rahel, F. (1996) Thermal limits to salmonid 
distributions in the Rocky Mountain Region and potential habitat loss 
due to global warming, Transactions of American Fisheries Society, 125 
(Jan.), 1-13.
    LeBlanc, A., Dudek, D. & Allegretti, L. (1991). Disappearing ducks: 
The effect of climate change on North Dakota's waterfowl. Retrieved 
June 6, 2005, from http:// www.environmentaldefense.org/documents/
1337--DisappearingDucks.htm.
    Lindeberg, J.D., & Albercook, G. (2000). Climate Change and Great 
Lakes Shipping/Boating. In Sousounis, P.J., and Bisanz, J.M. (Eds.) 
Preparing for a changing climate: The potential consequences of climate 
variability and change -- Great Lakes overview. Report by the Great 
Lakes Regional Assessment Group prepared for the U.S. Global Change 
Research Program. Ann Arbor, MI: Atmospheric, Oceanic and Space 
Sciences Department, University of Michigan, 39-42.
    Loomis, J., & Crespi, J. (1999). Estimated effects of climate 
change on selected outdoor recreation activities in the United States. 
In R. Mendelsohn and J.E. Neumann (Eds.), The impact of climate change 
on the United States economy (pp. 289-314). Cambridge, UK: Cambridge 
University Press.
    Mendelsohn, R., & Markowski, M. (1999). The impact of climate 
change on outdoor recreation. In R. Mendelsohn and J.E. Neumann (Eds.), 
The impact of climate change on the United States economy (pp. 267-
288). Cambridge, UK: Cambridge University Press.
    National Golf Foundation. (2004). Rounds played in the United 
States, 2004 edition. Florida: National Golf Foundation.
    National Sporting Goods Association. (2005). 2004 participation -- 
ranked by total participation. Retrieved May 28, 2005, from http://
www.nsga.org/public/pages/index.cfm?pageid=150
    Neilson, R. (1998). Simulated changes in vegetation distribution 
under global warming. In R. Watson, M. Zinyowera & R. Moss (Eds.), The 
regional impacts of climate change: An assessment of vulnerability, 
special report of IPCC Working Group 2 (pp. 441--456). Cambridge, UK: 
Cambridge University Press.
    Parmesan, C. & Yohe, G. (2003). A globally coherent fingerprint of 
climate change impacts across natural systems, Nature, 421, 37-42.
    Price, J. and Glick, P. (2002) The birdwatcher's guide to global 
warming. National Wildlife Federation, Reston, Virginia and American 
Bird Conservancy, The Plains, Virginia.
    Reuer, M. (2006) Regional challenges of future climate change: 
endless summer or business as usual? The 2006 Colorado College State of 
the Rockies Report Card. Colorado Springs: Colorado College. 85-103.
    Richardson, R.B., & Loomis, J.B. (2005). Effects of climate change 
on tourism demand and benefits in alpine areas. In C.M. Hall & J. 
Higham (Eds.), Tourism, recreation and climate change (pp. 164-180). 
Cleveland, UK: Channel View Publications.
    Root, T., Price, J., Hall, K., Schneider, S. Rosenzweig, C. & 
Pounds, J.A. (2003). Fingerprints of global warming on wild animals and 
plants. Nature, 421, 57-60.
    Royal and Ancient Golf Club of St. Andrews. (2000). On course for 
change: Tackling the challenges facing golf in the first decades of the 
new millennium. Scotland: Royal and Ancient Golf Club of St Andrews.
    Scott, D. and Jones, B. (2006) The impact of climate change on golf 
participation in the Greater Toronto Area: a case study. Journal of 
Leisure Research, 38 (4).
    Scott, D., Malcolm, J. and Lemieux, C. (2002) Climate change and 
modeled biome representation in Canada's national park system: 
implications for system planning and park mandates. Global Ecology and 
Biogeography, 11(6), 475-485.
    Scott, D., McBoyle, G., & Mills, B. (2003). Climate change and the 
skiing industry in southern Ontario (Canada): Exploring the importance 
of snowmaking as a technical adaptation. Climate Research, 23, 171-181.
    Scott, D. and Jones, B. (2006) Climate Change and Seasonality in 
Canadian Outdoor Recreation and Tourism--Executive Summary. Report 
prepared for the Government of Canada Climate Change Action Fund. 
Waterloo, Ontario: University of Waterloo. p. 28.
    Scott, D., Jones, B., Konopek, J. (2007) Implications of climate 
and environmental change for nature-based tourism in the Canadian Rocky 
Mountains: A case study of Waterton Lakes National Park. Tourism 
Management, 28 (2), 570-579.
    Scott, D., Dawson, J. and Jones, B. (in press 2007) Climate change 
vulnerability of the Northeast U.S. winter tourism sector. Mitigation 
and Adaptation Strategies to Global Change.
    Smith, J. and Tirpak, D. (1990) The Potential Effects of Global 
Climate Change on the United States. New York: Hemisphere Publishing 
Corporation.
    Sousounis, P.J., & Albercook, G.M. (2000). Historical Overview and 
Current Situation. In Sousounis, P.J., and Bisanz, J.M. (Eds.) 
Preparing for a changing climate: The potential consequences of climate 
variability and change--Great Lakes overview. Report by the Great Lakes 
Regional Assessment Group prepared for the U.S. Global Change Research 
Program. Ann Arbor, MI: Atmospheric, Oceanic and Space Sciences 
Department, University of Michigan, pp. 13-17.
    Southwick Associates. (2006) The Economic Contribution of Active 
Outdoor Recreation. Boulder, Colorado: Outdoor Industry Foundation.
    Suthey Holler Associates (2003) Community-based ATV tourism product 
model pilot project. Suthey Holler Associates, Toronto, Canada.
    Thomas, C.D., Cameron, A., Green, R.E., Bakkenes, M., Beaumont, 
L.J., Collingham, Y.C., Erasmus, B.F.N., de Siqueira, M.F., Grainger, 
A., Hannah, L., Hughes, L., Huntley, B., van Jaarsveld, A.S., Midgley, 
G.F., Miles, L., Ortega-Huerta, M.A., Peterson, A.T., Phillips, O.L. & 
Williams, S.E. (2004). Extinction risk from climate change. Nature, 
427, 145-148.
    U.S. Census Bureau. (2001). Summary--economic census: arts, 
entertainment, and recreation subject areas. Washington, D.C.: United 
States Department of Commerce, Economy and Statistics Administration.
    United States Census Bureau. (2004). Statistical abstract of the 
United States:2003. Retrieved May 28, 2005, from http://www.census.gov/
prod/2004pubs/03statab/arts.pdf.
    United States Department of the Interior, Fish and Wildlife Service 
and U.S. Department of Commerce (2001) National survey of fishing, 
hunting and wildlife-associated recreation. United States Department of 
the Interior, Fish and Wildlife Service and U.S. Department of 
Commerce, Washington, D.C.
    United States Environmental Protection Agency. (1995). Ecological 
impacts from climate change: An economic analysis of freshwater 
recreational fishing. (Report No. 220-R-95-004). Washington, D.C.: U.S. 
Environmental Protection Agency.
    United States Environmental Protection Agency (1999) Global Climate 
Change: What Does it Mean for South Florida and the Florida Keys. 
Report on the Environmental Protection Agency Public Consultations in 
coastal cities, May 24-28. Washington, DC: Environmental Protection 
Agency.
    United States Fish and Wildlife Service. (2002). Quick facts From 
the 2001 National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation. Arlington: VA: U.S. Department of the Interior.
    United States Forest Service. (2000). National Survey on Recreation 
and the Environment (NSRE). Athens, GA: Recreation, Wilderness, and 
Demographics Trends Research Group, USDA Forest Service, and Knoxville, 
TN: Human Dimensions Research Laboratory, University of Tennessee.
    United States National Assessment Team (2000) Climate change 
impacts on the United States: the potential consequences of climate 
variability and change. U.S. Global Change Research Program. Cambridge 
University Press, New York, USA Wall, G. (1998). Implications of global 
climate change for tourism and recreation in wetland areas. Climatic 
Change, 40, 371-389.
    Wall, G., Harrison, R., Kinnaird, V., McBoyle, G., & Quinlan, C. 
(1986). The implications of climatic change for camping in Ontario. 
Recreation Research Review, 13(1), 50-60.
    Wildlife Society. (2004). Global climate change and wildlife in 
North America (Technical Review 04-02). Bethesda, Maryland: The 
Wildlife Society.
    World Golf Foundation. (2001). Golf 20/20 industry report for 2001. 
Boca Rotan, Florida: World Golf Foundation.
    World Golf Foundation. (2002). Golf economy report. Boca Rotan, 
Florida: World Golf Foundation.
    World Golf Foundation. (2004). Golf 20/20 industry report for 2003. 
Boca Rotan, Florida: World Golf Foundation.
                                 ______
                                 
  Responses by Daniel Scott to Additional Questions from Senator Boxer

    Question 1. Dr. Scott Glacier National Park in Montana once had 150 
named glaciers. Now, it has 26. A U.S. Geological Survey study 
estimates that all of the park's glaciers could disappear by 2030.
    Are you familiar with this study? If we do not reduce greenhouse 
gas emissions, could global warming have the same devastating impacts 
on winter recreation in other areas during this century?
    Response. Yes, I am familiar with this study in Glacier National 
Park. In terms of glacial retreat, similar trends are being observed in 
other areas of the Rocky Mountains and similar projections of future 
large-scale melting of glaciers are projected throughout the Rocky 
Mountains in the United States and southern Canada (see the report of 
the IPCC 2007--``The Physical Science Basis''). This may have important 
impact for landscape aesthetics and the number of people who visit 
Glacier National Park and other parks where glaciers are projected to 
retreat substantially (see surveying of tourists in Waterton and Banff 
National Parks in the southern Canadian Rockies--Scott et al. 2007).
    With respect to the implications of climate change for winter 
recreation and tourism, large impacts are projected for snow-based 
winter sports, such as skiing and snowmobiling, in the United States. 
The ski industry has been repeatedly identified as being particularly 
vulnerable to climate change and studies on the ski industry in the 
United States, with several recent studies (California--Hayhoe et al. 
2004; Pacific Northwest--Casola et al. 2005, Rocky Mountains--Reuer 
2006, Aspen Colorado--Aspen Global Change Institute 2006, New England--
Scott 2007) projecting negative impacts, though to varying degrees and 
over different time horizons. Information on the impact on snowmobiling 
is currently more limited, but the available research suggests that 
snowmobiling is more vulnerable to the negative impacts of climate 
change than is downhill skiing because snowmaking is not a viable 
adaptation strategy. A recent study of snowmobiling seasons in 15 study 
areas in the Northeast (Scott 2007) found that the climate change 
scenarios consistently projected a trend toward shorter snowmobile 
seasons throughout the Northeast and a northward shift in the southern 
margin of snowmobiling activity. The majority of the 15 locations 
examined in this study were projected to have marginal or non-existent 
snowmobile seasons in 2040-2069 under both lower and higher emission 
scenarios.

    Question 2. Dr. Scott, describe the potential impacts from global 
warming without reducing greenhouse gas emission, on the frequency and 
intensity of fires and outbreaks of pests as well as water availability 
in the forests of the western United States during this century?
    Please also describe the potential impacts that these factors could 
have on residences, businesses, and public safety, as well as on 
resorts and outdoor recreation.
    Response. There are a number of studies on these topics done by 
experts in each respective field of climate change impact assessment 
(wildfires, pests and vegetation disturbance regimes, water resources). 
Research results from the USDA Forest Service Pacific Northwest (PNW) 
Research Station in 2004 suggest an increased fire risk throughout most 
of the region. The combination of drought stress, which weakens trees 
to pest disturbance, and improved climatic conditions for certain 
insect pests, allowing some to expand their range or have more than one 
annual breeding cycle, are anticipated to lead to an increase in large 
outbreaks in much of Western United States. The magnitude of the impact 
of climate change varies by individual pest species and by region. 
Thus, expert sources such as `Climate Change Impacts on the United 
States' (2000) and the IPCC 4th Assessment Report--``Impacts, 
Adaptation and Vulnerability'' (2007) should be consulted for further 
information on specific regions of interest. Increased wildfire and 
pest disturbance are anticipated to have negative impact on the 
recreation sector through adverse impacts on landscape aesthetics and 
in severe cases increased risk to recreation infrastructure and public 
safely.
    There are also many credible studies of the implications of climate 
change for water resources in the Western United States (for summaries 
see: `Climate Change Impacts on the United States' 2000 and the IPCC 
4th Assessment Report--``Impacts, Adaptation and Vulnerability'' 2007). 
The reduced availability of water resources due to population-economic 
growth and climate change are projected to have many impacts for the 
recreation sector, including the future viability of some forms of 
recreation (e.g., golf course irrigation in desert regions like Las 
Vegas). The affects of reduced water resources on recreation can 
already be seen in the region. For example, as a result of recent 
drought in western states, the Colorado River Outfitters Association 
experienced a 40 percent decline in business, with an estimated impact 
of $50 million (Associated Press 2002) and water levels in the Lake 
Mead, the largest western U.S. reservoir with 10 million visitors 
annually, dropped nearly 30-meter since 1999. Each six-metre reduction 
in water level costs $6 million for adapting infrastructure (Allen et 
al. 2003).

    Question 3. Dr. Scott, the Sierra Nevada snowpack provides 
California with water storage and winter sports opportunities. The 
State of California has said that by 2064 this snowpack could decrease 
by up to 47 percent, and by the end of the century it could decrease by 
up to 90
    What impact would such diminished water supplies have on the 
outdoor recreation industry, both winter and summer, particularly with 
anticipated drinking water and agricultural water needs?
    Response. As studies have indicated, if such declines in the snow 
pack were realized the impacts on various sectors of the California 
economy would indeed be significant. I will limit my remarks to my area 
of expertise, the recreation-tourism sector. The impact of such a 
decline in the natural snow pack would have a very negative impact on 
the skiing industry. Initially, more snowmaking would be required, 
driving up operating costs and prices to consumers. Importantly, as 
other sectors will be requiring additional water resources, snowmaking 
may not be an option for some ski operators that cannot acquire 
adequate water rights. Without snowmaking, many ski areas are likely to 
be put out of business under high-emission climate change scenarios for 
mid-21st century. The impacts on summer recreation will not be as 
dramatic, but some negative impacts are likely where limited water 
supplies limit the capacity of recreation use in some high visitation 
areas, such as parks, or for activities that require certain water 
volumes or temperatures in lakes and streams, such as rafting or 
fishing.

    Question 4. Dr. Scott, can you describe the potential impacts of 
climate change on southern California's summer outdoor recreation 
season in the middle and late part of this century if we do not reduce 
greenhouse gas emissions?
    Response. Very little research has been done on this question and 
it remains an important area for future study given the economic 
importance of this sector in southern California. Generally speaking 
the climate resources for tourism in southern California would 
deteriorate under high-emission scenarios as the following figure from 
one of my studies suggests (Scott et al. 2004). The decline in the 
`tourism climate index' in the Los Angeles area is the result of 
increased heat stress in the summer months (see notable decline in 
June-July-August-Sept in the British HadCM3 scenario). The decline in 
climatic suitability for general tourism activities also suggests the 
climatic conditions for many general recreation activities, like 
camping, golfing, hiking would decline in the peak summer months as 
well due to excessive heat.

[GRAPHIC] [TIFF OMITTED] T1967.001

    Question 5. Dr. Scott, what impact could climate change have on 
snowmobilers across the United States, including the Northeast, 
Midwest, and western states by the middle and late pan of this century 
if we do not reduce greenhouse gas emissions?
    Response. A recent study I conducted of snowmobiling seasons in 15 
study areas in the Northeast (Scott 2007) found that the climate change 
scenarios consistently projected a trend toward shorter snowmobile 
seasons throughout the Northeast and a northward shift in the southern 
margin of snowmobiling activity. The majority of the 15 locations 
examined in this study were projected to have marginal or non-existent 
snowmobile seasons in 2040-2069 under both lower and higher emission 
scenarios. Consequently, the loss of snowmobiling activity and related 
tourism would appear largely unavoidable in the following locations if 
the climate change scenarios projected for 2040-2069 were realized: 
Western New York, North-central Pennsylvania, Southeast New York, 
South-central Pennsylvania, East Pennsylvania, West Massachusetts, 
South New Hampshire, and Northeast New York. I have provided further 
details about the anticipated regional impacts on these two multi-
billion dollar industries in my written testimony.
    No studies specific to the Midwest are available, however a study 
of the potential impact of climate change on snowmobiling in southern 
Canada found that under the high emission scenario for the 2050s, a 
reliable snowmobiling season would be essentially eliminated from 
Canada's non-mountainous regions (McBoyle et al. 2007). Given the 
Midwest is more southerly in latitude than the study areas in the 
Canadian study, the anticipated impacts would be of a similar 
magnitude, if not more severe or sooner.

    Question 6. Dr. Scott, if we do not reduce greenhouse gas 
emissions, what impact could climate change have on New England's fall 
tourist season, particularly on recreational opportunities involving 
fall foliage?
    Response. Climate change is anticipated to negatively impact 
tourism associated with the viewing of fall foliage (leaf colors) 
(Bloomfield and Hamburg 1997, Union of Concerned Scientists 2007) due 
to the northward shift in the range of species with colourful leaves, 
such as maple and aspen (see modeling by Iverson and Prasad 1998).

    Question 7. Dr. Scott, what impact could climate change have on 
bird watching and hunting, including migratory birds, in the middle and 
late part of this century if we fail to reduce greenhouse gas 
emissions?
    Response. The `The Birdwatcher's Guide to Global Warming' (Price 
and Glick 2002) outlines the concerns of the bird watching community 
about the potential impact of climate change on their recreation. Bird 
species can be affected by climatic changes in a number of ways, 
including changes in their habitat range, availability of food sources 
at certain times of the year, the timing and path of migrations, and 
nesting behaviour. Research suggests that climatic changes during the 
20th century have already had a discernable impact on bird populations 
in North America (Price and Glick 2002) and Europe (Lemoine and 
Bohning-Gaese 2002). Climate change in the 21st century is projected to 
further impact the distribution and diversity of bird populations in 
North America. Price and Root (2001) argue that the number of 
neotropical migrant species present in the United States would decline 
under projected climate change, with the largest species losses in the 
Eastern Midwest (^30 percent), Great Lakes (^29 percent), Mid-Atlantic 
(^23 percent), and Southeast (^22 percent) regions. With an estimated 
one in every three of North American songbirds born in Canada's boreal 
forest Blancher 2002), the projected decline and retreat of the 
southern boreal forest due to climate change (Hogg and Hurdle 1995, 
Scott et al. 2002) has important implications for songbird populations. 
The degradation or loss of critical habitats (particularly key 
wetlands) could have a significant impact on birding destinations. The 
increased rarity of some species could however generate increased 
tourism, as birders travel further in search of these species. There 
are also negative impact projected for many duck populations that are 
important resources for hunters in the Midwest and elsewhere (LeBlanc 
et al. 1991, Wildlife Society 2004).

    Question 8. Dr. Scott, what impact of climate change have on the 
recreational industry of the Southwestern United States in the middle 
and late pan of this century if we do not reduce greenhouse gas 
emissions?
    Response. There is little research available on the potential 
impact of climate change to the recreation sector in this region of the 
United States. However, probably the two most important potential 
impacts of climate change for the recreation sector will be to increase 
temperature extremes and exacerbate existing water supply problems. 
Increased temperatures may further restrict participation in certain 
recreation activities during parts of the year, due to heat stress 
risks and may bring high water users, like golf courses, into conflict 
with other water uses. However, further research is needed if we are to 
understand the potential magnitude of impacts.

                            References Cited

    Allen, J., 2003: Drought Lowers Lake Mead, NASA. [Accessed 
09.02.07: http://earthobservatory.nasa.gov/Study/LakeMead/]
    Aspen Global Change Institute (2006). Climate change and Aspen: an 
assessment of impacts and potential responses. Aspen, Colarado: Aspen 
Global Change Institute.
    Associated Press (2002b) Rough year for rafters. The Associated 
Press, 3 September 2002.
    Bloomfield, J., & Hamburg, S. (1997). Seasons of change: Global 
warming and New England's White Mountains. New York, NY: Environmental 
Defense Fund.
    Casola J, Kay J, Snover A et al (2005) Climate impacts on 
Washington's hydropower, water supply, forests, fish and agriculture. 
Centre for Science and the Earth System, University of Washington, 
Seattle
    Hayhoe K., Cayan D., Field C., et al (2004) Emission pathways, 
climate change, and impacts on California. Proceedings of the National 
Academy of Sciences 101(34): 12422-12427
    Hogg, E. and Hurdle, P. 1995. The aspen parkland in western Canada: 
a cry-climate analogue for the future boreal forest? Water, Air and 
Soil Pollution, 82, 391-400.
    Intergovernmental Panel on Climate Change (2007a). Summary for 
Policymakers. In: Climate Change 2007: The Physical Science Basis. 
Contribution of Working Group I to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change [Solomon, S., D. Qin, M. 
Manning, Z. Chen, M. Marquis, K.B. Averyt, M. Tignor and H.L. Miller 
(eds.)]. Cambridge University Press, Cambridge, United Kingdom and New 
York, NY, USA.
    Intergovernmental Panel on Climate Change (2007b). Climate Change 
2007: Impacts, Adaptation and Vulnerability--summary for policymakers. 
Contribution of Working Group 2 to the Fourth Assessment Report of the 
IPCC. Cambridge University Press, Cambridge, United Kingdom and New 
York, NY, USA.
    Iverson L.R. and Prasad A.M. (1998) Predicting abundance of 80 tree 
species following climate change in the eastern United States. 
Ecological Monographs 68: 465-485.
    LeBlanc, A., Dudek, D. & Allegretti, L. (1991). Disappearing ducks: 
The effect of climate change on North Dakota's waterfowl. Retrieved 
June 6, 2005, from http:// www.environmentaldefense.org/documents/
1337--DisappearingDucks.htm.
    Lemoine, N. and Bohning-Gaese, K. (2003) Potential impact of global 
climate change on species richness of long-distance migrants. 
Conservation Biology, 17, 2, 577-586.
    McBoyle, G., Scott, D., and Jones, B. (in press-2007). Climate 
change and the future of snowmobiling in non-mountainous regions of 
Canada. Managing Leisure.
    Price, J. and Root, T. (2001) Climate change and neotropical 
migrants. Proceedings of the 66th Annual North American Wildlife and 
Natural Resources Conference, 21 March, Washington, DC.
    Reuer, M. (2006) Regional challenges of future climate change: 
endless summer or business as usual? The 2006 Colorado College State of 
the Rockies Report Card. Colorado Springs: Colorado College. 85-103.
    Scott (2007) Impacts on Winter Recreation. Confronting Climate 
Change in the U.S. Northeast. A Report of the U.S. Northeast Climate 
Impacts Assessment. Cambridge, MA: Union of Concerned Scientists. 81-89
    Scott, D., Malcolm, J. and Lemieux, C. (2002) Climate change and 
modeled biome representation in Canada's national park system: 
implications for system planning and park mandates. Global Ecology and 
Biogeography, 11(6), 475-485.
    Scott, D., McBoyle, G., and Schwartzentruber, M. (2004). Climate 
change and the distribution of climatic resources for tourism in North 
America. Climate Research, 27(2), 105-117.
    Scott, D., Jones, B., Konopek, J. (2007) Implications of climate 
and environmental change for nature-based tourism in the Canadian Rocky 
Mountains: A case study of Waterton Lakes National Park. Tourism 
Management, 28 (2), 570-579
    Union of Concerned Scientists (2007) Confronting Climate Change in 
the U.S. Northeast. A Report of the U.S. Northeast Climate Impacts 
Assessment. Cambridge, MA: Union of Concerned Scientists.
    United States National Assessment Team (2000) Climate change 
impacts on the United States: the potential consequences of climate 
variability and change. U.S. Global Change Research Program. Cambridge 
University Press, New York, USA.
    Wildlife Society. (2004). Global climate change and wildlife in 
North America (Technical Review 04-02). Bethesda, Maryland: The 
Wildlife Society.

    Senator Boxer. Thank you very much, sir.
    Tom Campion, founder of Zumiez, we welcome you.

        STATEMENT OF TOM CAMPION, FOUNDER, ZUMIEZ, INC.

    Mr. Campion. Chairman Boxer, thank you for inviting me to 
come to talk today.
    Good morning, Senators. My name is Tom Campion and I am the 
founder and chairman of Zumiez, Inc. We are a chain of more 
than 250 action sports retail stores located in 24 States. Ten 
of these States are represented by members of your Senate 
committee, including California, New York, New Jersey, 
Minnesota, Montana, Idaho, Wyoming and Oklahoma.
    Over the last 29 years, we have built an incredible 
business in serving the teenage surf, skateboard, and snowboard 
lifestyles, the action sports market. We are one of the largest 
retailers in the United States for snowboard hard goods and 
winter-related apparel.
    The growth in this segment of retail has contributed to our 
having yearly comparable stores sales gains in 28 of our 29 
years in existence. We currently employ over 3,000 people in 
the United States and expect to grow our employee base by about 
20 percent a year. Our long-term success has allowed the 
company to go public in 2005 and our business plan includes 
expanding to 800 stores nationwide over the next 10 years.
    I am here today to speak about the impacts of global 
warming on the outdoor recreation industry, which is the winter 
component of my action sports business. Enclosed, Senators, 
with my written comments, is a list showing over 7,000 retail 
store locations in the United States that carry winter-related 
outdoor products.
    While my comments speak specifically to outdoor recreation 
specialty retailers, global warming will affect all clothing 
retailers in major parts of the United States. Senators, I have 
been in the clothing business for over 37 years. It has been my 
experience that weather is the single biggest influence on the 
purchase of clothes, larger even, in my 37 years in retail, 
than the state of the economy.
    Weather is a very powerful motivator. When it gets cold, 
you buy a jacket. You purchase gloves and a knit hat. When it 
turns warm, you buy a T-shirt and shorts. Without changes in 
weather or seasons, customers would shop more sporadically and 
respond more to fashion cycles, and often it can be very 
disruptive to retailers.
    This past winter, we saw unseasonably warm weather in the 
Midwest and the Northeast United States, where Zumiez has over 
70 stores. This season, the sales of winter apparel and winter-
related hard goods were down dramatically. The lack of sales 
resulted in lower employment levels in the region and lower 
payment of State sales taxes. The shortened winter season 
reduced consumer demand for winter products, and led to the 
backing-up of seasonal inventories and the necessity of early 
markdowns of these products.
    I will give you one small example. Zumiez has 40 stores 
between New York and New Jersey. Senator Lautenberg, we have 12 
stores currently in New Jersey and plan to add about 12 more in 
our business plan. Our comparable store sales just in snow-
related hard goods, (snowboards and bindings and snow-related 
soft goods, which would be the jackets, pants, base layers), in 
the same stores were over 20 percent less than comparable store 
sales the year before. These figures were even more significant 
because the drop occurred during the heavily-weighted Christmas 
gift-giving season.
    But when winter did arrive in late January, our profits 
margins by then were seriously eroded because customers expect 
in January and on to buy heavily marked-down products this deep 
into the season.
    Clothing taxes are heavily weighted on the sales in the 
fourth quarter of the year, which is Christmas and the bulk of 
the winter shopping season. When winters are warmer or come 
late, margins erode. Merchandise backs up, employment levels 
suffer, and States lose an historic resource for their State 
budgets.
    Just in New York State alone in the last 2 months of 2005, 
Zumiez, with our 28 stores, in the last 2 months paid over 
$200,000 in city, county and State sales taxes on our winter-
related hard goods and soft goods. If you consider the over 
7,000 retail store locations across the country carrying 
winter-related products, you can understand the contribution of 
our business sector to the economy, and can imagine the 
potential economic effect of warmer winters across the country.
    But the economic effects of global warming on retail sales 
will go far beyond just the stores that specialize in sales of 
outdoor apparel. One example would be the ski resort industry. 
The skiing season's length and the quality of downhill skiing 
and snowboarding will be strongly affected in the coming years. 
Revenues in ski areas will likely decline due to lack of snow, 
and some areas such as your Sierra Nevadas, it could be 
completely lost to the sport.
    Senators for almost 30 years, I built my business based in 
large part on supplying the winter needs for my market for 
where I am now in the United States. I am really successful at 
what I do, enough to grow to 250 stores. I have overcome every 
business challenge in the last 30 years. But if I am going to 
execute the business plan I have told the public markets, and 
grow to 800 stores--and personally our company could add 7,000 
employees to the economy of the United States--I need your 
help. We need to acknowledge that global warming is here, and 
that it is bigger than any one business sector can handle and 
deal with on its own. As a country, we need to start dealing 
with global warming now.
    Thank you very much.
    [The prepared statement of Mr. Campion follows:]

            Statement of Tom Campion, Founder, Zumiez, Inc.

    Good morning. My name is Tom Campion. I'm the founder and chairman 
of Zumiez Inc., a chain of more than 250 action sports retail stores 
that are located in 24 states. Ten of these states are represented by 
members of your Senate committee, including California, New York, New 
Jersey, Minnesota, Montana, Idaho, Wyoming and Oklahoma. Over the last 
29 years we have built up an incredible business in serving teenage 
surf, skateboard and snowboard lifestyles: the Action Sports market. We 
are one of the largest retailers in the United States for snowboard 
hard goods and winter-related apparel. The growth in this segment of 
retail has contributed to our having yearly comparable store sales 
gains for 28 of our 29 years in business. We currently employ over 
3,000 people and expect to grow our employee base by 20 percent a year. 
Our long-term success allowed the company to go public with a stock 
offering in 2005, and our business plan includes expanding to 800 
stores nationwide over the next ten years. To learn more about Zumiez, 
I would refer you to our public SEC filings.

                     WEATHER AND CLOTHING PURCHASES

    I'm here today to speak to the impacts of global warming on the 
outdoor recreation industry, the winter component of my action sports 
business. Enclosed with my written comments is a list showing 7,000 
retail locations in the United States that carry winter-related outdoor 
recreation products.
    While my comments speak specifically to outdoor recreation 
specialty retailers, global warming will affect all clothing retailers 
in major parts of the United States. I've been in the clothing business 
for 37 years, and in my experience weather is the single biggest 
influence on purchases of clothes--larger even than the health of the 
economy. Weather is a very powerful motivator: when it gets cold you 
buy a jacket, you purchase gloves, a knit hat, and other items. When 
the weather turns warmer you buy a pair of shorts and a T-shirt. 
Without changes in weather customers shop more sporadically and in 
response to fashion cycles which can be very disruptive.

              CLOTHING SALES DOWN DRAMATICALLY LAST WINTER

    This past winter saw unseasonably warm weather in the Midwest and 
the Northeast United States, where Zumiez has over 70 stores. This 
season the sales of winter apparel and winter-related hard goods were 
down dramatically. The lack of sales resulted in lower employment 
levels in the region, and lower payments for state sales taxes. The 
shortened winter season reduced consumer demand for winter products and 
led to a backing-up of seasonal inventories and the necessity for early 
markdowns of products.
    Let me give you one small example from this last winter season: 
Zumiez has 40 stores between New York and New Jersey. There was no 
snow--or even significant cold weather--until late January 2007. Our 
comparable store sales in snow-related hard goods (snowboards, 
snowboard boots, bindings, gloves, goggles, and snow accessories) were 
down approximately 20 percent from the previous year. Snow-related soft 
goods (jackets, pants, base layer, etc.) in the same stores were more 
than 20 percent lower in comparables than the same categories company-
wide. These sales figures are even more significant because the drops 
occurred during the heavily-weighted Christmas gift-giving season. 
Though winter did arrive in late January, our profit margins by then 
were eroded because customers expect to buy heavily marked-down 
products this deep into the season.
    Clothing taxes are heavily weighted on sales in the 4th quarter of 
the year, which is Christmas and the bulk of the winter shopping 
season. When winters are warmer or come late, margins erode, 
merchandise backs up, employment levels suffer and states lose an 
historically solid resource for their state budgets.
    Just in New York state in the last 2 months of 2006, Zumiez stores 
paid over $200,000 in city, county, and state sales taxes on snow-
related hard goods and soft goods. If you then consider that over 7,000 
retail store locations carry winter-related products nationwide, you 
can understand the contribution of our business sector to the economy, 
and can imagine the potential economic effect of warmer winters across 
the country.

                         IMPACTS TO SKI RESORTS

    But the economic effects of global warming on retail sales will go 
far beyond just the stores that specialize in the sales of outdoor 
apparel. It will dramatically affect many retailers of winter sports, 
products and business, as well as traditional businesses. One example 
is the ski resort industry. The skiing season's length and the quality 
of downhill skiing and snowboarding will be strongly affected in the 
coming years. Revenues in ski areas will likely decline due to a lack 
of snow, and some areas (such as in the Sierra Nevada) may be 
completely lost to the sport.

                  IMPACTS TO SPORTS EQUIPMENT EXPORTS

    The trend towards warmer winter weather and the negative effects on 
snowfall and accumulation are also being seen in Europe and Asia. 
Snowfalls in Europe were down significantly this season, with very 
negative effects on the downhill skiing industry. Europe had the 
warmest December since records began in 1879. The Organization for 
Economic Cooperation and Development warned that many low-level resorts 
could soon be unviable, and predicted warmer temperatures in the 
future. Already, some banks are refusing to offer loans to resorts that 
are located at elevations under 5,000 feet (1,500 metres) due to fears 
for future snow cover. Germany is threatened the most, followed by some 
Austrian and Italian resorts. This in turn had negative economic 
consequences for the United States because American manufacturers 
export winter sports equipment to Europe and Asia.

                       IMPACTS TO BUSINESS CYCLES

    The negative economic effects of global warming on winter apparel 
and sports equipment suppliers would mean fewer jobs in the future in 
these businesses. The lower revenues would mean that these businesses 
would purchase fewer materials, goods, and support services from other 
companies. These direct and indirect effects would result in a decrease 
in household income for many families, and would induce additional 
negative impacts as these households decrease their purchases from 
local businesses. The local economic impacts could be quite severe in 
an area that depends heavily on the health of a winter sports resort or 
business. Local land values could fall, and government costs and 
revenues could be greatly affected.

              IMPACTS TO ECOSYSTEMS AND NATURAL PROCESSES

    The climate changes that will come to pass from global warming will 
ultimately affect the income, wealth, environment, and quality of life 
both overall and for particular groups of people. Changing ecosystems 
will affect the numbers and distribution of many plants and animals. 
Some of these changes will be subtle, but others may be dramatic, as in 
the retreat of cold-adapted species and the expansion of the range of 
various pests that do not tolerate cold or freezing conditions. 
Reductions in snowpack would have very negative consequences in the 
Pacific Northwest, where river flows, public water supplies and salmon 
habitat are all strongly dependent on the contribution of snowmelt. 
Reduced river flows would also affect river sports (boating, fishing, 
etc.)
    Throughout the West, warmer dryer conditions would increase the 
occurrence fires and increase the difficulties of controlling such 
fires. Diminished water and higher fire seasons might also lead to more 
limited access to summer recreational opportunities and impacts to 
camping and hiking equipment and clothing purchases.
                                 ______
                                 
    I've included some additional materials with my comments that 
provide some figures on the winter sports industry and business, and 
that show the economic contribution of these businesses to all regions 
of the United States. A few references are also provided to some of the 
literature about global warming and its effects.
    Climate change poses a serious challenge to social and economic 
development in all countries. I'd like to recommend that the United 
States take a positive and leadership role in responding to and 
addressing global warming. Ten bills have been introduced in Congress 
to initiate this greater response. While the particular mix of measures 
varies between the bills, the reduction of CO<INF>2</INF> contributions 
and the overall reduction of atmospheric CO<INF>2</INF> must be our 
objectives. The analysis by the World Resources Institute indicate that 
at this point, the measures in S. 309, the Sanders-Boxer bill in the 
Senate and the corresponding H. 1590 in the House, would best 
accomplish these objectives.
    Senators, for almost 30 years I've built up my business, based in 
large part on supplying the needs of the winter season in the United 
States. I've been very successful--enough to expand to 250 stores. I've 
overcome every business challenge to date. But if I'm going to execute 
my business plan to grow to 800 stores and employ an additional 7,000 
people, I need your help. We need to acknowledge that global warming is 
here and that it is bigger than any one business sector can handle on 
its own. As a country we need to start dealing with global warming now.

[GRAPHIC] [TIFF OMITTED] T1967.002

[GRAPHIC] [TIFF OMITTED] T1967.003

[GRAPHIC] [TIFF OMITTED] T1967.004

[GRAPHIC] [TIFF OMITTED] T1967.005

[GRAPHIC] [TIFF OMITTED] T1967.006

[GRAPHIC] [TIFF OMITTED] T1967.007

[GRAPHIC] [TIFF OMITTED] T1967.008

[GRAPHIC] [TIFF OMITTED] T1967.009

[GRAPHIC] [TIFF OMITTED] T1967.010

[GRAPHIC] [TIFF OMITTED] T1967.011

[GRAPHIC] [TIFF OMITTED] T1967.012

[GRAPHIC] [TIFF OMITTED] T1967.013

[GRAPHIC] [TIFF OMITTED] T1967.014

[GRAPHIC] [TIFF OMITTED] T1967.015

[GRAPHIC] [TIFF OMITTED] T1967.016

[GRAPHIC] [TIFF OMITTED] T1967.017

[GRAPHIC] [TIFF OMITTED] T1967.018

[GRAPHIC] [TIFF OMITTED] T1967.019

[GRAPHIC] [TIFF OMITTED] T1967.020

[GRAPHIC] [TIFF OMITTED] T1967.021

[GRAPHIC] [TIFF OMITTED] T1967.022

[GRAPHIC] [TIFF OMITTED] T1967.023

[GRAPHIC] [TIFF OMITTED] T1967.024

[GRAPHIC] [TIFF OMITTED] T1967.025

[GRAPHIC] [TIFF OMITTED] T1967.026

[GRAPHIC] [TIFF OMITTED] T1967.027

[GRAPHIC] [TIFF OMITTED] T1967.028

[GRAPHIC] [TIFF OMITTED] T1967.029

[GRAPHIC] [TIFF OMITTED] T1967.030

[GRAPHIC] [TIFF OMITTED] T1967.031

[GRAPHIC] [TIFF OMITTED] T1967.032

[GRAPHIC] [TIFF OMITTED] T1967.033

[GRAPHIC] [TIFF OMITTED] T1967.034

[GRAPHIC] [TIFF OMITTED] T1967.035

[GRAPHIC] [TIFF OMITTED] T1967.036

[GRAPHIC] [TIFF OMITTED] T1967.037

[GRAPHIC] [TIFF OMITTED] T1967.038

    Senator Boxer. Thank you, Mr. Campion, for your very 
eloquent testimony, and also just giving us the numbers to back 
it up. We appreciate it.
    Betty Huskins, chair of the Southeast Tourism Policy 
Council. Welcome.

  STATEMENT OF BETTY HUSKINS, CHAIR, SOUTHEAST TOURISM POLICY 
                     COUNCIL, ADVANTAGEWEST

    Ms. Huskins. Thank you. I appreciate your, Senator Boxer, 
inviting me to be here today. I would also like to thank you 
for your leadership in this arena.
    I come to you today wearing several hats. First of all, I 
am the chairman of the Southeast Tourism Policy Council, which 
is an arm of the Southeast Tourism Society, which represents 
tourism businesses and organizations in 11 southern States, of 
which in all of those, tourism is either the first or second 
largest industry in those States.
    Second, I am the senior vice president for a regional 
economic development group in the mountains of North Carolina, 
called AdvantageWest. We were established by the North Carolina 
General Assembly.
    Last, but not least, I come to you as a business owner in 
the tourism industry. My husband and I are fortunate enough to 
own a lodge and restaurant that his family built in 1937, 
adjacent to a 90-foot waterfalls, Linville Falls, and within 
walking distance to America's first wilderness area in eastern 
America.
    So I wear several hats to be able to talk to you about how 
it really is affecting things on the ground level. First, I 
will tell you a little story. We never get hurricanes in the 
mountains of North Carolina. As a rule, that is a coastal issue 
that we worry about our friends on the coast. But in 2005, due 
to the flooding, we received 19 inches of rain in 24 hours. The 
Blue Ridge Parkway was washed away in five different locations, 
and it was closed for almost 2 years to make those repairs.
    So it was very difficult as a small business owner to be 
able to live through that, and be able to hold onto your 
business. We were fortunate enough to do that, but many of our 
friends were not, so a lot of businesses were closed in North 
Carolina.
    At Southeast Tourism Society, we are very concerned about 
the tourism product. We have been so concerned about it that in 
2004 we held our first Federal Summit in Louisville, KY. We 
brought together the private sector tourism people. We brought 
together the Federal land managers for the Federal lands in the 
Southeast, and we spent 3 days discussing ways that we could 
collaborate and work better together.
    I am proud to tell you that that summit resulted in a 
memorandum of understanding between us and 12 Federal agencies, 
to have that discussion. We continue to do that on a regular 
basis. We are meeting quarterly with our Federal partners.
    Now, in North Carolina, my home where I work and live, we 
boast two of the most visited parks in the Nation: the Great 
Smoky Mountains National Park and the Blue Ridge Parkway. It 
contributes about $7.5 billion annually to our economy, and 
Senator Sanders, it provides about 95,000 jobs in our State. It 
consistently ranks at the top of the reasons of why people come 
to the State of North Carolina.
    My personal experience as an economic developer I would 
like to share with you. As you know, North Carolina led the 
Nation in the loss of manufacturing jobs 2 years in a row. Most 
of that was in furniture and textiles, and I am glad to say 
that we are back. We are coming back with a strong economy now. 
In my region, the natural resources and an asset-based economic 
development strategy has sustained us during that time that we 
were losing all those manufacturing jobs. We have been able to 
hold on to our quality of life.
    It is interesting to me now to see that we are working with 
entrepreneurs that are coming there because we have created 
skills from that furniture industry as boat builders. The boat 
building companies are coming to North Carolina. We have 
announced three of those in the last year. They are looking for 
those skills that we had in the furniture industry.
    We are working with entrepreneurs that are building the 
better bicycles, doing innovative products with kayaks, and 
also one company that is doing what we would call a high end 
tailgating product that they are putting out on the market 
right now.
    So all of those things are related to outdoor recreation, 
and they are critically important to those communities that I 
work with that are gateway communities next to Federal and 
public lands. So this industry, along with technology and 
advanced manufacturing, is helping us create a new economy and 
a strong quality of life, and it is critically important to us.
    Now having said all that, we believe that probably the most 
important aspect is that Americans really need the outdoors. 
Their health probably depends on it. I know I am preaching to 
the choir because I have heard all of you speak today. I don't 
know if you have read ``The Last Child in the Woods: Saving Our 
Children from Nature Deficit Disorder.'' You probably all have. 
But if you haven't, I would say that you might be shocked to 
hear quotes like, ``I like to play indoors because that is 
where all the electrical outlets are.'' You also might find it 
shocking to know that a survey taken in 2002 by the Science 
Journal found that more children knew the characters in the 
Pokemon game than could identify an otter, a beetle, or an oak 
tree. That is pretty amazing.
    But we believe that the knowledge of nature is the best 
weapon for our young people to learn about stewardship of 
Mother Earth. So we need families traveling together to 
national parks, camping, fishing, exploring nature. We really 
cannot simulate that experience inside the home.
    So in conclusion, let me say like it or not, change is a 
part of life, and we know that the environmental change in 
global warming has the potential to profoundly affect us both 
economically and personally. At the Southeast Tourism Society, 
we stand ready to collaborate with you and our Federal partners 
to develop ways that we can blunt the impact of environmental 
change, and protect our natural resources. We believe we have 
to all work together and make the hard decisions and take 
personal responsibility.
    Thank you very much.
    [The prepared statement of Ms. Huskins follows:]

         Statement of Betty Huskins, Chair, Southeast Tourism 
                     Policy Council, AdvantageWest

                              INTRODUCTION

    Good morning! Thank you Madam Chairman for inviting me to testify 
before this esteemed body. I come to you wearing several hats. First, I 
am representing the Southeast Tourism Policy Council, an arm of the 
Southeast Tourism Society which is a non-profit, 501(c)6, membership 
organization that covers 11 Southern States. The organization is 
dedicated to the development of industry organizations & professionals 
and the promotion of tourism within and to STS member states by sharing 
resources, fostering cooperation, networking, providing continuing 
education, cooperative marketing, consumer outreach, advice & 
consultation, governmental affairs and other programs. Membership 
includes State Travel Offices, Convention & Visitors' Bureaus & other 
Destination Marketing Organizations, attractions, advertising, lodging, 
media, educational institutions, product suppliers, travel writers and 
other related industry segments.
    Second, I come to you as the Senior Vice President of a regional 
economic development organization, AdvantageWest Economic Development 
Group, created by the North Carolina General Assembly to serve twenty 
three mountain counties in North Carolina. I work in rural, gateway 
communities every day as part of my job.
    Last, but not least I am a small business owner. My husband and I 
own and operate The Linville Falls Lodge adjacent to the first 
wilderness area in Eastern America, the Linville Gorge and less than a 
mile off the Blue Ridge Parkway, America's most visited Scenic Highway. 
Our business has been in his family since 1937.
    STS appreciates your invitation to appear before the Environmental 
and Public Works Committee to discuss the issue of the potential 
impacts of global warming on recreation and the recreation industry and 
I want to thank you for your service in this body. It is no simple task 
to assume the responsibility of debating public policy regarding global 
warming and it affects on our society and the generations that come 
after us. As a tourism professional, I have witnessed the impact 
environmental changes are having on the travel and tourism industry as 
a whole. The Blue Ridge Parkway was closed almost 2 years after the 
flooding caused by the hurricanes of 2005. We were fortunate to weather 
that disaster at our small business. However, many of our friends were 
not so fortunate.
    The tourism industry knows that fundamental policy issues must be 
addressed in order to sustain many of the very products, such as our 
publicly owned lands to remain appealing and available for future 
generations.
    As tourism professionals, we recognize the impact environmental 
changes are having on the travel and tourism industry as a whole. In 
fact, in 2004 STS brought together private sector tourism marketers and 
public sector federal land managers to find common ground on ways that 
our natural, historical and cultural treasures could be preserved for 
future generations. As such, it represented a milestone in the changing 
tourism environment. The summit proposed to explore the magnitude of 
the travel and tourism industry and to develop a better understanding 
of the economic and social roles played by public land managing 
agencies at the Federal and State levels. Such a Summit was long 
overdue, and it was essential that the private tourism industry and 
public lands agencies engage one another in positive dialogue and 
comprehensive strategies to develop, market, and use public lands in 
sustainable ways that will not impair resource values.
    The policies that guide the operation of the tourism industry and 
the policies that guide the use and development of public lands deserve 
thoughtful attention and the travel and tourism industry in the 
southeast is aggressively pursuing public private partnerships to 
insure protection of our treasured natural, cultural and historical 
resources for future generations.
    Fundamental policy issues must be addressed in order for the 
tourism industry to sustain itself and for our publicly owned lands to 
remain appealing and available for future generations. Tourism is 
hugely important to our region's economy and to our quality of life. We 
recognize the need to address environmental change and degradation on 
our industry's future ability to provide economic stimulus to so many 
of our rural communities.
    As recreationists, we understand our environmental responsibility 
to be stewards of the treasured resources in our region. In fact, 
recreationists were at the vanguard of calling for environmental 
legislation in the 60's and '70s, which is the primary rationale behind 
many of the regulatory goals that are framed in ``fishable and 
swimmable waters'' and Class 1 viewsheds in national parks. Protecting 
both the recognition of tourism as a vital component of federal land 
management policies and our natural resources is why we favor, common 
sense proposals to balance the needs of tourists and the environment, 
for example, lowered emissions from our cars and trucks and other 
recreational products.
    That said, Americans love the outdoors and benefit from time in the 
outdoors--both the magnificence of significant parklands like the Great 
Smokies and small wonders like urban green space--and we can't take 
actions which shut people up in their homes, unable to enjoy and 
benefit from the public lands and waters that are their birthright.
    There is nothing wrong with driving to the beach, a national park 
or a ski area. And there is nothing wrong with camping and boating and 
riding horses and ATVs--activities that require an ability to carry and 
tow sizeable items. As we encourage changes to reduce emissions, let's 
not create other problems--including health problems or crises for 
rural communities dependent on recreation and tourism.
    In our smaller rural settings and gateway communities, recreation 
is the primary economic generator.
    In fact, the recreation economy:
    <bullet> Contributes $730 billion annually to the U.S. economy
    <bullet> Supports nearly 6.5 million jobs across the United States
    <bullet> Generates $88 billion in annual state and national tax 
revenue
    <bullet> Provides sustainable growth in rural communities
    <bullet> Generates $289 billion annually in retail sales and 
services across the United States
    <bullet> Touches over 8 percent of America's personal consumption 
expenditures--more than 1 in every $12 circulating in the economy
    In my home state of North Carolina, spectacular recreation sites, 
from Mt. Mitchell to the Outer Banks, bring tourism dollars from out-
of-state outdoor recreation participants. In the small village of 
Linville falls where I live and operate a business, we depend on it for 
our livelihood. In North Carolina alone, outdoor recreation contributes 
more than $7.5 billion annually to North Carolina's economy and 
supports 95,000 jobs across the state. The bottom line for us is 
simple. Outdoor recreation creates sustainable long-term economic 
growth and community development for many small businesses.
    I would like to share another perspective with you regarding the 
economic importance of outdoor recreation I have seen recently in the 
mountains of North Carolina. As you know, North Carolina led the nation 
for two years in the loss of manufacturing jobs. Those jobs were 
primarily in textiles and furniture. We have been on a long road of 
recovery. However, the mountain region in particular, has sustained 
itself because of their bountiful natural resources and our people's 
ability to focus on an asset-based economic development strategy. It 
has been interesting to see the boat manufacturers moving to our region 
to fill the gap created by the loss of furniture manufacturers. They 
have come for many reasons, but certainly the skills of fine furniture 
makers in our labor force have been very instrumental in luring them to 
North Carolina. In addition, we at AdvantageWest find ourselves now 
working with entrepreneurs manufacturing new bicycle products, better 
kayaks, innovative campers, and high-end tailgating equipment. All of 
these products focused on the great outdoors.
    Outdoor recreation is vital to the local economies of rural 
America. White House recognition of tourism as an important tool in 
rural economic development came on January 22, 1990, when the President 
ordered implementation of the Report on Rural Economic Development for 
the 90s. This report explains that opportunities for economic 
development for rural America will be found primarily in off-farm 
employment opportunities, especially in industries such as tourism, 
retirement living, and commercial recreation, which all serve to bring 
additional income to rural communities. In remarks on October 28, 1991, 
the President state: ``More and more rural communities are making 
tourism a part of the economic development option for the nineties. And 
the U.S. Travel and Tourism Administration, along with other government 
agencies, is working to put small-town America on the tourist map. As 
part of that initiative, federal agencies will provide leadership for 
educational outreach programs in rural tourism development.''
    But outdoor recreation encompasses far more than economic 
development. Perhaps one of the most significant observations with 
regards to the benefits of outdoor recreation is the important role it 
can play in improving the overall health of Americans. There is a 
profound connection with outdoor recreation to a healthy lifestyle. 
Obesity has been declared epidemic. Connecting the benefits of outdoor 
recreation and the positive effects it can have on obesity offers a 
possible solution for this crisis affecting so many Americans.
    Now, more than ever, we need to be promoting outdoor recreation and 
its benefits, particularly to our youth. There is growing evidence that 
today's children are gravitating away from outdoor experiences and 
towards a virtual indoor reality. This disconnect from nature has 
serious long-term implications for the cognitive, physical, social and 
emotional well-being our nation's children. Richard Louv's recent book 
``Last Child in the Woods--Saving our Children from Nature-Deficit 
Disorder'' analyzes the societal problems that have arisen in the last 
generation of youth, who have lost contact with nature. Louv quoted a 
fifth-grader who claimed, ``I like to play indoors better cause that's 
where all the electrical outlets are.''
    We must find smarter solutions to the global warming issues, but we 
cannot replace the value of a family spending time together in their RV 
in a national park, or a grandparent's right to pull the family boat to 
the lake to teach their grandchildren the excitement of catching a 
fish. We cannot simulate those priceless experiences through video 
games from inside our homes without becoming unhealthy and uninspired.
    Kids need to know about nature. It nurtures, educates and instills 
them with a sense of stewardship for the environment. A survey reported 
in 2002 in The Journal of Science found that more children knew the 
characters in the electronic game Pokemon than could identify an otter, 
beetle or oak tree. Nationwide, the science literacy of citizens--both 
young and old--has eroded. The implications of this oversight represent 
the most critical global challenge, one that our country cannot afford 
to overlook. The promotion of outdoor recreation offers a significant 
alternative approach towards educating our young people about the 
importance of stewardship.
    Knowledge of nature is their best weapon if young people are to 
ultimately make good decisions about personal health, climate change 
and land-use management. They need to touch flowers and know why some 
plants cannot survive without insect pollinators, to walk in a forest 
and understand how many millions of years were required to create 
petroleum from dead plants.
    So important is this issue that the American Recreation Coalition 
and the National Forest Foundation convened a series of Recreation 
Forums in earlier this year designed to provide organizations and 
individual's opportunities to:
    <bullet> identify unmet needs and challenges facing recreation on 
public lands; and
    <bullet> provide examples of successful and innovative efforts to 
provide the nation with outstanding outdoor recreation experiences on 
public lands, and especially national forests; and
    <bullet> express ideas and offer suggestions for enhancing the 
ability of public lands to meet the recreation needs of--and the 
resulting benefits to--the American public.

                           CONCLUDING REMARKS

    Like it or not, inevitably change is a part of life. As we grapple 
with changes to our environment, changes in our economy, and changes to 
the way our children play and learn, we must recognize the critical 
role that tourism plays in addressing each of these challenges. The 
impact of environmental change and global warming has the potential to 
profoundly affect our businesses and our communities. Recognizing this 
is why the tourism industry has already begun to reach out to our 
federal partners to collaborate on ways we can blunt the impact of 
environmental change and protect our natural resources of decades to 
come.
    Through the STPC and a memorandum of understanding with 12 federal 
agencies, we have already begun to partner with the federal management, 
we stand ready to work with Congress to identify and implement policies 
that will ensure our environment, our communities, and our economy are 
not only protected, but thrive.
    In conclusion, we believe we must all work together, across party 
lines and across economic and environmental barriers to do the right 
thing for us, our children and our grandchildren. We must make the hard 
decisions. However, as you move forward developing national policies in 
this regard we would urge you to keep the delicate balance we have 
discussed today in the forefront so as not to have ``unintended 
consequences'' that develop from over-reaching federal regulations.

    Senator Boxer. Thank you, Ms. Huskins, for that message of 
unity, which we welcome in this committee.
    Mr. Watson, the Vermont Association of Snow Travelers.

  STATEMENT OF BRYANT M. WATSON, EXECUTIVE DIRECTOR, VERMONT 
              ASSOCIATION OF SNOW TRAVELERS, INC.

    Mr. Watson. Madam Chairman, distinguished members of this 
committee, it is a great honor and pleasure to be here today. I 
do represent the Vermont Association of Snow Travelers, more 
commonly referred to as VAST. The Vermont Association of Snow 
Travelers was established in 1967, therefore we are in our 40th 
year, 40 years old. We are very proud of that. We have grown 
from a single club in 1967 to 140 clubs today.
    In 1970, the State of Vermont started operating what they 
called the Statewide Snowmobile Trails Program, or SSTP. They 
operated this program through 1977. Then in 1977, they decided 
that they didn't want to be in the snowmobile trail business, 
and put out an RFP for businesses and/or organizations to 
respond to and come up with a proposal to operate the Statewide 
Snowmobile Trails Program for them. VAST did this, and in 1977 
we took over the responsibility for the Statewide Snowmobile 
Trails System in Vermont.
    At that time, there was a total of 77 miles of snowmobile 
trails in the State of Vermont. Today, we have 4,750 miles of 
groomed corridor trails, and in what we classify as secondary 
trails, we have an additional 2,500 miles of trails. These 
trails run from the Massachusetts border in the south to the 
Canadian border in the north, and from the New Hampshire border 
in the east to the New York border in the west, and everywhere 
in between. We are the only true statewide snowmobile trail 
system in that regard.
    Vermont is a Mecca for outdoor recreation, especially 
winter recreation--downhill skiing, cross country skiing, 
dogsledding, ice fishing, hunting, and of course, my favorite 
sport, snowmobiling. Snowmobiling, in Vermont, is a way of 
life, and as many as 46,000 participants snowmobile on an 
annual basis and take advantage of our trail system.
    As many as 20,000 of those who recreate in Vermont are non-
residents. They come to us from Connecticut, Massachusetts, New 
York, Maine, and many of the States throughout the area. These 
people not only bring with them lots of money when they come to 
Vermont to visit, but a lot of them buy second homes, and a lot 
of them buy homes and become residents of the State of Vermont 
and run their businesses from them, because of the quality of 
life that we provide within the State of Vermont.
    These snowmobilers, up to 46,000 of them, based on a 2001 
economic impact study that we completed, provide a $500 million 
a year economic impact for the State of Vermont. Recreation in 
general brings in $2.5 billion to the State of Vermont's 
economy on an annual basis.
    I fear for that impact on winter recreation. The winters of 
late have come very late. We normally would see snow in 
December, espeically in early January and throughout January, 
which normally would be our coldest month. That has not taken 
place in the last half decade. We are seeing more and more rain 
in December, rain in January, very warm temperatures, and then 
in February we get our very cold weather. So when you look at 
the winter recreation time period, basically 4 months, 
December, January, February and March, we are cutting that time 
period in half when we can bring in this $2.5 billion for 
recreation.
    It is a very serious problem. Because of that, a lot of 
people are not continuing to snowmobile. They are saying, well, 
it is really not worth it this year, so I am not going to 
register my snowmobile. I am not going to buy my trail pass. I 
am not going to go out there because I only have a couple of 
weeks or 6 weeks at the most to be able to enjoy the sport.
    It is not only Vermont where we see this happening. 
Snowmobiling is a $21 billion a year industry across the United 
States. We see this happening in Minnesota. We see it happening 
in Wisconsin and Michigan, New York, New Hampshire, Maine, any 
of the States that have snowmobile trail systems. They are 
seeing the same types of winter events.
    We are also finding that the events that we have over the 
last couple of years, especially in February. These February 
snowstorms have had have been large Nor'easters. They have come 
in and they have dumped a lot of snow, but they have also done 
a lot of damage, that has created millions of dollars of 
damage, especially to forest lands. It has decimated a lot of 
our softwood forests and maple forests in the State of Vermont.
    So there are in fact economic impacts created by climate 
change. Job losses, dealerships with the State of Vermont are 
giving up their dealerships because of falling sales. The sales 
are down because of the short winters. People are not buying 
the new snowmobiles. The mom and pop stores, the hotels, the 
motels, the restaurants and many more, especially in the 
Northeast Kingdom of Vermont, where snowmobiling is the only 
form of winter recreation that brings in millions of dollars a 
year to those businesses in the northeast.
    So we really need to look at climate change. I commend 
Senator Sanders and those of you who have signed on and 
introduced S. 309. This bill amends the existing Clean Air Act 
and would establish new benchmarks to help control the effects 
of global warming. Our Nation needs to become energy self-
sufficient. We must immediately start working toward that goal 
and give incentives to those who would develop clean energy 
supplies, such as E-85 ethanol, biodiesel, hydrogen fuel cell 
technology, solar, wind, tidal current energy, renewable wood 
energy, and for my part, after spending 7 years of my life as 
the manager of Member Services for Vermont Electric 
Cooperative, I believe we need to pursue nuclear energy as 
well.
    If the United States does not have an energy supply that is 
cheap, plentiful and clean, we will continue to lose industry 
and jobs to countries that have an abundant supply of energy to 
fuel their commerce and industry.
    Thank you.
    [The prepared statement of Mr. Watson follows:]

Statement of Bryant M. Watson, Executive Director, Vermont Association 
                        of Snow Travelers, Inc.

    Good morning Senators, my name is Bryant Watson and I am the 
Executive Director of the Vermont Association of Snow Travelers, Inc. 
(VAST), located in Berlin, Vermont. It is indeed a pleasure, privilege, 
and honor to come before you today to address the issue of ``Climate 
Change and its Impact on Recreation.''
    Vermont is a Mecca for winter recreation: downhill skiing; cross 
country skiing; dog sledding; ice fishing; hunting and of course I 
can't forget my favorite recreation, snowmobiling.
    There are 24 states, throughout the United States, that operate 
snowmobile trail programs. VAST is very unique; it is the only private 
not-for-profit organization, in the United States that is charged with 
the development, management, and maintenance of its state snowmobile 
trail system. In the remaining 23 states, state agencies are 
responsible for the development and maintenance of their snowmobile 
trail programs.
    VAST was established in November of 1967. We will celebrate our 
40th anniversary this fall. In 1977 VAST entered into a cooperative 
agreement with the Vermont Agency of Natural Resources, Department of 
Forests, Parks and Recreation. This agreement transferred 
responsibility for Vermont's Statewide Snowmobile Trail Program (SSTP) 
to VAST. At the time the agreement was signed there were only 77-miles 
of snowmobile trails that were classified as a part of the Statewide 
Snowmobile Trail System (SSTS). Today, the SSTS consists of more than 
4,750-miles of groomed corridor snowmobile trails. Local clubs and 
contractors groom and maintain these trails under contract on behalf of 
VAST. An additional 2,500-miles of secondary snowmobile trails exist, 
and local snowmobile clubs maintain these trails. This system of 
snowmobile trails allows Vermont snowmobilers to snowmobile from the 
Massachusetts border in the south to the Canadian border in the north. 
It also allows them to snowmobile from the New Hampshire border in the 
east, to the New York border in the west. This makes the Vermont SSTS 
the only true statewide snowmobile trail system in the nation.
    Snowmobiling is a way of life in Vermont. Each year as many as 
46,000 individuals take to the snowmobile trail system in Vermont. Many 
of these snowmobilers come to Vermont from other states and countries, 
and some years as many as 20,000. They not only spend great amounts of 
money while they are in Vermont, but many of them buy second homes and/
or move their formal residence to Vermont due to snowmobiling and 
Vermont's quality of life.
    The latest economic impact study, conducted in 2001, indicates that 
snowmobiling contributes more than $500,000,000 annually to Vermont's 
economy, second only to downhill skiing in the category of winter 
recreation. Vermont is a very small state and it relies on recreation 
and tourism to fuel a major portion of its economic engine. Recreation 
as a whole contributes more than $2,500,000,000 to Vermont's economy, 
annually. However, the time frame in which these funds can be generated 
is very short; especially, the time frame for winter recreation.
    The legal snowmobile season in Vermont starts on December 16 and 
the official ending date is April 15. In 4 short months, VAST generates 
more than $500,000,000 for Vermont's economy. In recent years this has 
become a great challenge. Winter has not arrived in Vermont at its 
normal time! When we should be seeing lots of snow and temperatures 
well below freezing, we have seen rain and temperatures above freezing. 
It takes plenty of snow and cold weather to enable the opening of 
Vermont's SSTS and the ski trails at Vermont's ski areas, that offer 
superb downhill skiing to tens of thousands of visitors each year. Much 
of the income generated from snowmobiling and downhill skiing is 
created during holiday periods. Christmas and New Years are very 
important, as are the weeks surrounding Martin Luther King, Jr.'s birth 
date; President's Day and St. Patrick's Day; Easter is a bonus for both 
forms of recreation. We must be able to offer snowmobiling and downhill 
skiing during the above periods. If we cannot, the season is normally 
lost and the state's economy feels the pinch.
    This past winter is a perfect example. December and the first half 
of January were well above normal, both in temperature as well as 
precipitation in the form of rain. The second half of January was cold, 
but we did not have much or any natural snow in most locations in 
Vermont. The first part of February delivered normal temperatures, but 
not much snow. Then came the ``Valentine's Day Blizzard!'' It delivered 
more than 36-inches of snow statewide and finally allowed for all of 
the SSTS to open. Prior to that time, only ten percent of the SSTS had 
been open. Then came another blizzard on St. Patrick's Day; this storm 
left more than 24-inches of snow over most of Vermont. The day before 
the close of the season, April 14, much of the state got more than 18-
inches of wet, heavy snow.
    An observation that I have made is that winter storms now seem to 
come later in the season and they are much more intense than in the 
past. Several of this year's storms were strong Nor-easters and created 
losses for many private and public landowners, hundreds of acres of 
forestland were devastated by the heavy snow and strong northeast 
winds, causing millions of dollars of damage.
    Based on the above, both the snowmobile industry and the downhill 
ski industry missed the first half of winter and have suffered 
significant financial losses. VAST must generate between four and five 
million dollars in revenue in order to have a successful snowmobile 
season. The majority of income supporting the SSTS is derived from the 
sale of trail passes. These trail passes are similar to season or day 
ski passes that are purchased and allow the buyer to use downhill ski 
areas. The VAST trail pass enables Vermont snowmobilers to legally ride 
Vermont's SSTS. The sale of trail passes were down nearly 40 percent 
this last winter. This leaves VAST with a huge dilemma, how do we cope 
with the changing climate and survive for the future?
    One way that VAST is currently pursuing the future is with the 
development and management of four-season recreational trails; this is 
being accomplished with the assistance of Senator Sanders and the 
United States Congress. VAST is in the process of converting an old 
abandoned 96-mile long rail bed into a four-season recreational trail. 
Senator Sanders was instrumental in working with VAST and Congress to 
obtain a federal high priority grant for this project. VAST has been 
designated, by the Vermont Legislature, as the Developer and Manager of 
this project. We have signed a long-term lease with the Vermont Agency 
of Transportation for the use of this state owned treasure. The trail, 
when completed, will become one of the longest rail trails in the 
nation and it will span the width of Vermont, starting in the east near 
the Connecticut River in St. Johnsbury and ending in Swanton to the 
west, at Lake Champlain. Currently, we are developing the final plans 
that will allow this dream to become a reality. Once completed, the 
trail will draw thousands annually to Vermont, throughout the four 
seasons; the trail will enable them to enjoy the majestic, pastoral 
beauty that is Vermont.
    Thank you for this opportunity.

    Senator Boxer. Thank you very much, sir.
    Our next speak is Derrick Crandall, president of the 
American Recreation Coalition. Welcome, sir.

     STATEMENT OF DERRICK A. CRANDALL, PRESIDENT, AMERICAN 
                      RECREATION COALITION

    Mr. Crandall. Thank you, Madam Chairman. I have to say that 
the members of this committee have made my job very easy. The 
first four pages of my testimony said less well than you said 
the importance of recreation in America today. I certainly 
relate to each one of the members here. As a member of a family 
that was rooted in Ashaway, RI, that took Zane Grey out fishing 
with line and twine years ago, as a brother-in-law of the 
person that runs Greenland Geographics and does a lot of remote 
sensing, and as the husband of a graduate of UVM, and as 
somebody born in New Jersey and spent a lot of time enjoying 
the outdoors of New Jersey, I am delighted to hear the 
testimony that you have given to the importance of recreation 
in America.
    I would like to simply say that recreationists have been at 
the vanguard of environmental protection for generations. In 
fact, during my days up in New Hampshire with acid rain in the 
1960s and 1970s, the recreation community took the lead in 
talking about the impact on the forests, on the fishing, and 
the other kinds of things, and helped to bring about a 
recognition of the importance of limiting the emissions of 
Midwest and other electrical generation centers that were 
causing a decline in the fisheries of the Nation.
    It is for that reason that the recreation community can and 
should continue to be a leader in responding to the challenges 
that you are now addressing with global climate change.
    There certainly are scientific reasons to argue about what 
the specifics are, but the urgency of acting is certainly 
clear. There is no reason to delay until all the facts are 
there. I am proud to say that the recreation industry continues 
to be a leader.
    I would like to simply outline a couple of the things that 
are being done. One of the areas that we are especially proud 
of is within the national parks of this Nation, an especially 
important area. Concessioners like Xanterra are leading the way 
with an ability to keep out of the trash area 5 million pounds 
every year through recycling and reuse, through even taking the 
grease from the restaurants and recycling that into biodiesel 
and using that in buses, and finding alternative ways to move 
people within our parks, tremendous successes.
    That is not the only example. Concessioners are leading the 
way. In fact, fixed recreation sites are asking today: can we, 
should we, and will we do more? The answer is absolutely yes. 
We need to find those ways. We need to find the right 
solutions, and the recreation industry intends to be a leader 
in all this.
    I would also like to compliment, and I know we have 
somebody here who knows a lot about the X-Games. I just want to 
talk about the importance of what the Walt Disney Company has 
done. Of course, Walt Disney owns ESPN, and through the 
Environmentality Program has brought a revolutionary new kind 
of perspective to look at how the impact of the X-Games can be 
modified through use of green power and a variety of other 
kinds of ways. They are still fun. They are still great, but in 
fact now the environmental impact of the X-Games has been 
modified directly.
    So I come to you today with both a message of hope and 
opportunity, and also just some concerns that we need to 
express. Betty Huskins mentioned the work of Richard Louv, the 
author of ``Last Child in the Woods.'' He has been here in 
Washington on Monday and Tuesday. I am sorry that the Senator 
from Minnesota isn't here. I was with her colleague, the 
wonderful gentleman who represents the Eighth District of 
Minnesota, Jim Oberstar, the leader of our Scenic Byways 
Program.
    Incidentally, I would like to compliment this committee. 
You have been leaders in the National Scenic Byways Program, 
and in fact you are helping because by slowing down the travels 
in this Nation, the travels are more efficient. A car moving at 
40 to 50 miles an hour on a scenic byway, you see more, but you 
are also getting more miles to the gallon, and that contributes 
in its own way.
    But I guess the point is that Richard Louv was addressing 
the scenic byways community up in Baltimore, and then came down 
and was paired with an announcement of More Kids in the Woods, 
a grant program that the Forest Service has just kicked off. He 
talks about bookend issues, global climate change, and the 
decrease in outdoor participation by America's youth. Both are 
issues we need to take action on immediately.
    The fact of the matter is that America's youth need to know 
intimately the kinds of experiences that we have shared in the 
outdoors to have a passionate commitment to environmental 
protection. I think we can and we should be doing that.
    As we turn to where we can go in terms of responding to 
greenhouse gas emissions, there are two areas. The first is 
fixed sites where people go to recreate. About 75 percent of 
recreation occurs at and along the Nation's largest waters--our 
ocean fronts, the major lakes, the major rivers. Those areas 
need to be leaders in terms of demonstrating commitments to 
both innovative ways to reduce consumption of energy and other 
kinds of things, and also looking to ensure continued emphasis 
on clean water.
    We are also looking at other ways that we can assist. 
Throughout this country, from major metropolitan areas from 
Washington to Denver to other areas, we see an exodus of people 
towing recreation items, whether those are snowmobiles or RVs 
or boats every weekend. We are working now with the Federal 
land managers to look at if we can't find better ways to store 
those recreational items closer to where people use them, and 
reduce the unnecessary use of energy as those vehicles are 
towed back and forth from where you live to where you play. We 
can do more in that.
    We also believe that there is an opportunity to look at 
alternative ways to access our national parks and national 
forests. Very few areas of this country are served well by 
public transportation to be able to access that.
    However, we do want to make sure that in our needed actions 
to address global climate change, that we don't kill the goose 
that lays the golden egg. We don't want to discourage healthy, 
active lives and the travel to see special places like national 
parks that unify all Americans and create those marvelous 
family memories. We need to remember that any fuel efficient 
SUV or even a motorhome gets more passenger miles per gallon 
than even the most efficient car with a solo driver. We need to 
not discourage the use of vehicles that are essential to towing 
and hauling the recreational products that are essential to 
active lifestyles.
    Thank you very much.
    [The prepared statement of Mr. Crandall follows:]

             Statement of Derrick A. Crandall, President, 
                     American Recreation Coalition

    Madame Chair and Distinguished Members, the American Recreation 
Coalition (ARC) appreciates the opportunity to appear before this body 
today to discuss an extraordinarily important issue: the potential 
consequences of global climate change on recreation and the recreation 
industry.
    I am Derrick Crandall and I am appearing on behalf of the members 
of the American Recreation Coalition (ARC)--more than 100 national 
organizations, representing virtually every segment of the nation's 
$400 billion outdoor recreation industry, and tens of millions of 
outdoor recreation enthusiasts.
    Our organization has played an active role in federal recreation 
policy since its creation in 1979. We were centrally involved in the 
creation and operations of the President's Commission on Americans 
Outdoors in the mid-1980's and the National Recreation Lakes Study 
Commission, which submitted its report in 1999 to the Congress and the 
President. Both spoke directly to the topic before this body today. We 
also were actively involved in the creation of the National Recreation 
Fee Demonstration Program and have enjoyed opportunities to work 
closely with this committee on such diverse programs as the National 
Scenic Byways Program, the Recreational Trails Program, the Wallop-
Breaux program aiding fishing and boating, and programs to provide 
access to and safe transit across our public lands. We thank the 
Chairman and members of this body for the continuing interest shown in 
these important issues.
    Outdoor recreation is a vital and positive force in our nation 
today. Nine in ten Americans participate in outdoor recreation today, 
and a major catalyst for this involvement is the marvelous shared 
legacy of our Great Outdoors--one in three acres of the surface of the 
nation managed by federal agencies and hosting well in excess of a 
billion recreation visits annually. ARC monitors participation in 
outdoor recreation closely through annual national surveys. A summary 
sheet on participation is attached.
    The benefits accruing from recreation participation are 
significant, and the appreciation for these benefits is growing. The 
economic significance of outdoor recreation is obvious in communities 
across the nation, and especially those communities proximate to 
federally-managed lands and waters. From boat dealers to campground 
operators, from RV manufacturers to ski rental shops, from retailers 
selling outdoors goods to guides and outfitters, tens of thousands of 
businesses and millions of Americans are supported by $400 billion in 
annual expenditures on recreation by American families. And 
increasingly, America's recreational opportunities are a key factor in 
luring international visitors to enjoy the world's best systems of 
parks and forests, refuges and other public sites. It is especially 
noteworthy that two major segments of the recreation industry--RV and 
recreational boats--are solid US manufacturing businesses employing 
tens of thousands of skilled workers.
    But the public recognizes that recreation contributes far more 
significantly to our nation in ways beyond jobs. Recreation is 
understood as a valuable means to encourage the physical activity we 
need to maintain our health. With two in three Americans failing to get 
the minimum level of physical activity recommended by the Surgeon 
General--just 30 minutes daily of moderate movement like walking--and 
obesity now responsible for medical costs greater than those linked to 
tobacco, opportunities to combine exercise with fun are an obvious 
priority. Studies now document that increasing recreation participation 
can be among the most cost effective strategies for reducing public 
health costs.
    And the benefits arising from recreation don't stop there. 
Recreation can be a very effective means for increasing parent-child 
communications as well as a tool to deter violent crime and substance 
abuse. Outdoor settings and recreational activities have proven 
valuable as alternative educational programs, especially for disruptive 
youth and those with learning styles poorly suited to traditional 
classrooms. Earlier this week, a California author and journalist, 
Richard Louv, was in town to speak to two very important audiences: the 
National Scenic Byways Conference and a large gathering at the U.S. 
Department of Agriculture. Louv's book, Last Child in the Woods, has 
added to our lexicon with a new term: Nature Deficit Disorder. And he 
presents credible evidence that nature-robbed kids are much more prone 
to Attention Deficit Disorder and prescribed medicines like Ridalin 
with uncertain long-term consequences. Concerns expressed by Louv and 
others have motivated the recreation community to pursue strategies 
like the California Children's Outdoor Bill of Rights--which expressed 
a commitment to helping all children splash in clean water and hike 
through healthy forests (details appended).

              RECREATION AND THE ENVIRONMENTAL PROTECTION

    The recreation community has been a solid and active proponent of 
environmental protection for decades. Recreationists understandably 
care about waters that are too polluted to use for swimming and 
boating, and about national park vistas impaired by pollutants. This is 
why recreationists were leaders in arguing for action on acid rain in 
the 1960's. It is why recreationists and the recreation industry today 
support education and communications programs championing responsible 
use of the outdoors--programs like Leave No Trace and Tread Lightly! It 
is why national park concessioners have an incredible track record of 
initiatives to serve park visitors well while operating in an 
environmentally-friendly way.
    One of the leading park concessioners is Xanterra. Xanterra uses 
renewable wind power and on-site large-scale renewable solar 
photovoltaic systems to reduce in-park air emissions and greenhouse gas 
emissions. Each year, Xanterra recycles, composts, and diverts from the 
local park landfill more than five million pounds of solid waste. 
Xanterra also recycles grease on-site into biodiesel for use in fleet 
vehicles and boilers, and uses hybrid vehicles, countless electric 
vehicles, and numerous alternative fuel vehicles throughout all of its 
operations.
    Other concessioners are making similar strides. Buses now help 
visitors enjoy Yosemite Valley without reliance on personal vehicles--
and the buses are powered by alternative fuels to reduce emissions. 
Boat fleets rented at Lake Mead by Forever Resorts use new-technology 
engines, again dramatically reducing emissions.
    Other recreation companies are taking initiatives, as well. The 
Walt Disney Company has adopted a far-ranging strategy labeled Eco-
Action Through Action Sports. Key to the effort is the X Games 
Environmentality'' (XGE) Mission. Disney has committed its ESPN X Games 
to environmental stewardship in all facets of event planning, from 
waste reduction to recycling, from use of environmentally friendly 
products to use of renewable resources and reducing emissions through 
``green power'' use at the X Games events. It further uses the ESPN X 
Games to encourage employees and spectators alike to proactively 
support its Environmentality creed.

                  RECREATION AND GLOBAL CLIMATE CHANGE

    The recreation community is concerned about the potential of global 
climate change on recreation opportunities. Fears of an inability to 
provide skiers with snow, or the danger of coastal erosion and more 
violent weather in areas which draw large numbers of Americans for 
recreation--75 percent of all recreation occurs at or near the shores 
of our oceans, large lakes and major rivers--clearly concern us. And 
for that reason, the recreation industry seeks to be a vital part of 
public policy discussions and action on global climate change.
    Can, should and is the recreation community taking actions to 
reduce greenhouse gas emissions linked to recreation: the answer to all 
three questions is YES. And we feel that together, government, industry 
and individuals can achieve important goals that are good for the 
environment--and make economic sense, too.
    Our efforts are in two fields. The first is at recreation sites. We 
know that there are practical steps that can and should be taken to 
reduce our environmental impact. We also know that the small business 
nature of the recreation industry makes and active technical assistance 
initiative by the Environmental Protection Agency, by the U.S. 
Department of energy and others vital to assist recreation businesses 
identify and adopt best practices.
    The second issue is transportation-related actions. Mobility is one 
of the core underpinnings of recreation choices in America. Few of us 
live where we choose to play. And all of us benefit from the ability to 
travel from the regions in which we live to see and experience the 
priceless legacy of the outdoors--the one-third of the nation belonging 
to every American and managed by agencies including the National Park 
Service, the Forest Service, the U.S. Fish and Wildlife Service, the 
Bureau fo Land Management and the U.S. Army Corps of Engineers--special 
places that draw more than a billion visits annually. We strongly 
encourage public policies that continue and enhance the connection of 
the public to these places. That is why we support enthusiastically the 
National Park Service Centennial Initiative. Visits to these places 
yields mental and physical health benefits, memories which bond 
families and friends and unify us as Americans.
    It is for that reason that we call upon the Congress to insure that 
actions to respond to global climate concerns do not serve to imprison 
Americans indoors.
    It is important to understand that actions that reduce greenhouse 
gas emissions and promote mobility can be undertaken. In fact, we 
applaud this committee for its role in creating and nurturing the 
National Scenic Byways Program. Byways deliver great benefits to the 
public by slowing travelers down and making trails and fishing spots 
more accessible and more findable. Just the very fact that travel on 
byways is typically at 40 to 50 miles per hour is a contribution to 
emissions reduction, since it increases the efficiency of cars, SUVs 
and trucks markedly over that attained when traveling at Interstate 
speeds--or worse yet, in congested traffic on Interstates.
    Concerns about greenhouse gas emissions has also spurred the 
recreation community to open a dialogue with federal recreation site 
managers, gateway communities and others about ways to reduce 
consumption of motor fuels in another important way. Millions of 
Americans tow or carry large recreational items from home to recreation 
site--often every week. This movement reduces vehicle efficiency 
significantly. We are seeking to protect the ability of Americans to 
camp, to boat, to use off-highway vehicles--but to leave these units 
nearby actual places of use. This could have a dramatic benefit on fuel 
efficiency and safety--and actually save American families money.
    We also favor alternative transportation to personal vehicles for 
access to recreation sites. There are a handful of national parks and 
national forests that facilitate movement from urban residential areas 
to public recreation sites, including the Santa Monica Mountains 
National Recreation Area near Los Angeles and the Wasatch-Cache 
National Forest near Salt Lake City. We need efforts to make such 
access much more common.
    We also ask help in overcoming an increasingly common complaint 
from recreationists: that easy access to free tire inflation stations 
has declined precipitously, despite that fact that properly inflated 
tires have been demonstrated repeatedly to be the easiest and most 
economic way to increase vehicle fleet efficiency.
    In closing, we ask the Congress to be wary of the danger of actions 
that would discourage healthy active lives and travel to see special 
places like national parks. The reality is that a reasonably fuel-
efficient SUV--or even a large motorhome--gets more passenger miles per 
gallon when occupied by a family than does even the most fuel efficient 
car available today when occupied solely by a driver. And the benefits 
to the nation are large. We know that towing and carrying capacity are 
key ingredients for purchases of vehicles by many American families, 
and we ask your help in protecting the ability of Americans to purchase 
vehicles that meet these needs.
    Thank you for attention to this important issue.

    [GRAPHIC] [TIFF OMITTED] T1967.039
    
    [GRAPHIC] [TIFF OMITTED] T1967.040
    

    Senator Boxer. Thank you, sir, very much. Very good words. 
I think what has really been interesting about this hearing is, 
I don't know if people realize the majority invites and the 
minority invites. I think you are all speaking with one voice, 
which is really great for our committee. We need that to happen 
more often, I think.
    Mr. Berry, we welcome you. Just to remind everyone, you are 
from the National Ski Areas Association.

   STATEMENT OF MICHAEL BERRY, PRESIDENT, NATIONAL SKI AREAS 
                          ASSOCIATION

    Mr. Berry. Absolutely. Thank you, Chairman Boxer. Thank 
you, Senators. Thank you for this opportunity to testify on 
behalf of the 326 member ski areas of the National Ski Areas 
Association. Ski areas across the country are concerned about 
the issue of global warming and its potential impacts on winter 
recreation, mountain ecosystems, our livelihoods and our way of 
life.
    I cannot think of a sector that will be more directly and 
profoundly impacted by climate change than the ski business. We 
in fact are the canary in the cage. As you have heard today, 
you have referenced time and time again the issue of the ski 
industry.
    The success of our operations depends on the weather. We 
are a weather-dependent industry. For this reason, we have made 
tremendous efforts to raise awareness on the issue of global 
warming and put solutions in place to solve it.
    In 2002, the National Ski Areas Association adopted a 
climate change policy. Our climate change policy was cutting 
edge in 2002 and unprecedented among businesses in the 
recreation industry. In summary, our climate change policy 
adopts a reduce, educate and advocate approach to fighting 
global warming. The policy calls for ski resorts around the 
country to reduce their own greenhouse gas emissions, educate 
our guests and the public about the potential threat of climate 
change in winter recreation, and advocate the need for 
policymakers to act now and act aggressively in curbing 
emissions.
    Ski areas have taken tremendous steps to reduce our own 
greenhouse gas emissions. There are now 59 resorts in the 
United States purchasing renewable energy credits, or green 
energy, for their facilities and lifts. Of these 59 resorts, 28 
are 100 percent green powered. The green power purchase of 
these 28 resorts results in avoidance of over 427 million 
pounds of CO<INF>2</INF>.
    Additionally, resorts are providing their customers with 
opportunities to purchase green tags to offset their carbon 
impacts when traveling to and from the resorts, or in fact to 
sign up for green energy in their homes. Resorts are also 
generating renewable energy onsite through micro-hydro projects 
and solar projects, and the first wind turbine will go online 
at a ski area in August 2007 at Jiminy Peak Mountain Resort in 
Massachusetts.
    Resorts are also using green building techniques, 
retrofitting existing facilities to save energy, using 
alternative fuels such as biodiesel in resort vehicle fleets 
and providing and promoting car pooling or mass transit use by 
guests and employees.
    As an industry, we are a relatively small source of 
greenhouse gas emissions. However, we recognize that we will 
need to help other industries to help turn this issue around. 
Ski areas have educated their guests and the public on the 
issue of global warming through an outreach campaign called 
Keep Winter Cool. NSAA's partners in the Keep Winter Cool 
campaign are the Natural Resources Defense Council and Clif 
Bar. Together, we have reached out to millions of people who 
ski and snowboard to make changes in their lives to fight 
climate change.
    We have enlisted famous athletes like Picabo Street and 
Shaun White to help us inspire snow sports participants to take 
action now to fight global warming. I invite the members of the 
committee to visit our Website, www.keepwintercool.org for more 
detailed information.
    Ski areas have advocated swift action on the part of 
policymakers to address the issue of climate change, both at 
the Federal and State level. During the 109th Congress, 71 ski 
areas in 21 States endorsed the McCain-Lieberman Climate 
Stewardship Act. During the 110th Congress, 35 resorts so far 
have endorsed the US-CAP approach to fighting global warming. 
Ski areas have also supported the adoption of renewable 
portfolio standards and cleaner fuels and cleaner vehicle 
emission requirements in a number of States.
    Ski areas are aware of the many studies and models that 
project the impact of global warming on snowpack. As an 
industry, we have tracked the average number of days that our 
member resorts are open across five regions in the country. 
Over a 16-year period, our data shows a declining trend in the 
number of days open nationally and in several regions as well. 
More specifically, the data shows a decline of over one day 
nationally per season over the past 16 years, and a decline of 
1.2 days in the Northeastern part of the United States.
    As you are also aware, there have been four recently 
published reports that specifically predict the economic harm 
to the American ski industry as a result of climate change. Two 
were authored in mountain communities in the western United 
States: Climate Change in Aspen: An Assessment of Impacts and 
Potential Responses by the Aspen Global Change Institute; and 
Save Our Snow: Climate Change in Park City by the Stratus 
Consulting Group.
    There are plenty of good reasons for ski resorts to be 
concerned about climate change and its potential impact on 
winter recreation. If as scientific models suggest, warming 
continues, we will experience a decreased snowpack, warmer 
nights, shorter seasons, and all of these changes could 
profoundly affect our industry. Fewer operating days would 
obviously impact our bottom line. Warmer nights would impact 
our ability to make snow, and snow making has become the norm 
in the industry with over 88 percent of our members making 
snow.
    For snow sports, the ski and snowboard industry in the 
United States at the resort level is a $5 billion industry. It 
employs 165,000 people. When you add in development, the 
equipment and apparel side of the industry, and all of the 
other businesses that rely on winter tourism, we have a 
significant and profound impact on the economy where we exist. 
In fact, we are particularly crucial in the rural economies 
across the country.
    There are ski areas in 37 States. Fifteen members of the 
committee have ski areas in their States, including the great 
State of Rhode Island. The ski industry views climate change as 
a long-term problem. However, we need to act now to solve this 
problem. While we have significant concerns over the potential 
impact of climate change on our operations, we are also 
optimistic about the future. We believe in technology. We know 
that solutions exist to address this problem, and trust that 
policymakers will act decisively in putting those solutions in 
place.
    The only other alternative we can ask is that Congress move 
Christmas to February, and since we know that that won't 
happen, we respectfully request swift and aggressive measures 
to address this important issue.
    Thank you for your consideration.
    [The prepared statement of Mr. Berry follows:]

 Statement of Michael Berry, President, National Ski Areas Association

    Thank you for the opportunity to testify today on behalf of the 
326-member ski areas of the National Ski Areas Association. Ski areas 
across the country are concerned about the issue of global warming and 
its potential impacts on winter recreation, mountain ecosystems, our 
bottom line and our way of life. I cannot think of a business that will 
be more directly and profoundly impacted by global warming than the ski 
business. The success of our operations depends on the weather. For 
this reason, we have made tremendous efforts to raise awareness of the 
issue of global warming and put solutions in place to solve it.

                       2002 CLIMATE CHANGE POLICY

    In 2002, the National Ski Areas Association adopted a climate 
change policy. At that time, climate change was the elephant under the 
carpet that needed to be addressed and addressed directly. Our climate 
change policy was cutting edge in 2002 and unprecedented among 
businesses in the recreation industry. In summary, our climate change 
policy adopts a ``REDUCE, EDUCATE, ADVOCATE'' approach to fighting 
global warming. The policy calls for ski resorts to reduce their own 
greenhouse gas emissions (GHGs), educate our guests and the public 
about the potential threat of climate change to winter recreation, and 
advocate the need for policy makers to act now and act aggressively in 
curbing GHG emissions.
    Ski areas have taken tremendous steps to reduce our own GHG 
emissions. There are now fifty-nine (59) resorts purchasing renewable 
energy credits or green energy for their facilities and lifts. Of these 
59 resorts, 28 are 100 percent green powered. The green power purchases 
of these 28 resorts result in the avoidance of 427,596,000 pounds of 
carbon dioxide (CO<INF>2</INF>). This is the equivalent of planting 
nearly 17 million trees or avoiding more than 169,000 round-trip 
flights between New York and San Francisco. Additionally, resorts are 
providing their customers the opportunity to purchase ``green tags'' to 
offset their emissions and ``ski pollution free'' or sign up for green 
energy in their homes. Resorts are also generating renewable energy on 
site through micro-hydro and solar projects, and the first wind turbine 
will go on line at a ski area in August of 2007 at Jiminy Peak Mountain 
Resort in Massachusetts. Resorts are also using green building 
techniques, retrofitting existing facilities to save energy, using 
alternative fuels such as biodiesel in resort vehicle fleets, and 
providing or promoting car pooling or mass transit use by guests and 
employees. We are a relatively small source of greenhouse gas 
emissions, however, and recognize that we will need the help of other 
industries to turn this problem around.
    Ski areas have educated their guests and the public on the issue of 
global warming through an outreach campaign called ``Keep Winter 
Cool.'' NSAA's partners in the Keep Winter Cool campaign are the 
Natural Resources Defense Council (NRDC) and Clif Bar, the energy bar 
maker in California. Together, we have reached out to millions of 
people who ski and snowboard to make changes in their lives to fight 
global warming. We have enlisted famous athletes like Picabo Street 
from the great State of Idaho and Shaun White from the great State of 
California to help us inspire snowsports participants to take action 
now to fight global warming. I invite the members of the Committee to 
visit our website, www.keepwintercool.org for more information.
    Ski areas have advocated swift action on the part of policymakers 
to address the issue of climate change, both that the federal and state 
level. During the 109th Congress, 71 ski areas in 21 states endorsed 
the McCain/Lieberman Climate Stewardship Act. During the 110th 
Congress, thirty resorts have endorsed the US-CAP approach to fighting 
global warming. Ski areas have also supported the adoption of renewable 
portfolio standards (RPS) and cleaner fuels and cleaner vehicle 
emissions requirements in a number of states.

                            SCIENCE AND DATA

    Ski areas are aware of the many studies and models that project the 
impact of global warming on snowpack. As an industry, we have tracked 
the average number of days that our member resorts are open across five 
regions of the country. Over a 16-year period, our data shows a 
declining trend in the number of days open nationally and in several 
regions. More specifically, the data shows a decline of 0.8 days 
nationally per season over the past 16 years; a decline of 1.2 days per 
season in the Northeast; and a decline of 0.7 days in the Rocky 
Mountains. One hundred and thirty-four (134) of our member ski areas 
operate on U.S. Forest Service land. These resorts have witnessed 
declining recreation budgets and increased spending on forest fires in 
the past 10 years. Former U.S. Forest Service Chief Dale Bosworth 
stated upon retiring from the agency earlier this year that climate 
change is ``undeniable'' and that it has ``huge social, economic and 
ecological implications.''
    We are also aware of four recently published reports that 
specifically predict economic harm to the American ski industry as a 
result of climate change. They are: Less Snow, Less Water: Climate 
Disruption in the West, by Stephen Saunders and Maureen Maxwell of the 
Rocky Mountain Climate Organization; Climate Change: Modeling a Warmer 
Rockies and Assessing the Implications, by Gregory Zimmerman, Caitlin 
O'Brady, and Bryan Hurlbutt of Colorado College; Climate Change and 
Aspen: An Assessment of Impacts and Potential Responses, by the Aspen 
Global Change Institute; and Save Our Snow: Climate Change in Park City 
by Stratus Consulting Group.

                          OPERATIONAL IMPACTS

    There are plenty of good reasons for ski resorts to be concerned 
about climate change and its potential impacts on winter recreation. 
Scientific models suggest that as warming continues, we could 
experience decreased snowpack, warmer nights, and shorter seasons. All 
of these changes could profoundly affect our industry. Fewer operating 
days would obviously impact our bottom line. Warmer nights would impact 
our ability to make snow. Snowmaking has become the norm in our 
industry. Eighty-eight (88) percent of our members make snow. We start 
making snow in October to meet pent up demand for early season skiing 
and snowboarding. It is crucial that we have sufficient snow cover for 
the holidays, as they account for 30 percent of our revenues. This 
season, it was impossible for many resorts to make snow due to warmer 
temperatures at night--even in December and January. Warmer nights also 
significantly drive up the costs associated with snowmaking. Finally, 
spring rain can wash away our base at a critical time of year for 
skiing and snowboarding and shorten our season.

                            ECONOMIC IMPACTS

    The mountain resort industry is a $5 billion industry that employs 
165,000 people. When you add in real estate, the equipment and apparel 
side of the industry, and all of the other businesses that rely on 
winter tourism to stay afloat, we have profound economic impacts. The 
ski industry's economic health is particularly crucial for a number of 
rural economies across the country. There are ski areas in 34 states. 
Fifteen members of this Committee have ski areas in their states.

                         LOOKING TO THE FUTURE

    The ski industry views climate change as a long-term problem. 
However, we need to act now to solve this problem and turn things 
around. While we have significant concerns over the potential impact of 
climate change on our operations, we are also optimistic about the 
future. We believe in technology. We know that solutions exist to 
address this problem, and trust that policymakers will act quickly and 
decisively in putting solutions in place. The only other alternative 
for us is to ask Congress to move Christmas to February. Knowing that 
will never happen, we respectfully request swift and aggressive 
measures to address this important issue.
    Thank you for your consideration of these remarks and the 
opportunity to address the committee today.

    Senator Boxer. Well, that said it all, didn't it, Mr. 
Berry?
    Our final speaker to testify is Barry McCahill, president 
of the SUV Owners of America.

   STATEMENT OF BARRY W. McCAHILL, PRESIDENT, SUV OWNERS OF 
                            AMERICA

    Mr. McCahill. Thank you, Chairman Boxer and Senators. Thank 
you for including us.
    SUVOA is an independent, nonprofit organization looking out 
for the needs not only of those who enjoy the great outdoors, 
but also those who need the power and utility of full-sized 
vehicles that they can use to haul, tow and carry more people. 
Our intent is not to market SUVs, and we are independent of the 
car companies.
    We are not a one-size-fits-all society. Light trucks fill 
an important economic and social niche. Those who own these 
vehicles are very concerned about the environment. They want 
improved fuel economy and less dependence on imported oil, as 
much if not more than many others.
    Most own them because they meet their family, business or 
lifestyle needs. They don't buy them as a fashion statement. 
Many are also persuaded by the better crash performance of 
larger vehicles. Based on the National Highway Traffic Safety 
Administration, data SUVs are 5 to 7 percent safer than 
passenger cars. Senator Lautenberg has been very involved in 
highway safety. I worked at the National Highway Traffic Safety 
Administration for an entire career, and he has been a leader 
in highway safety so he knows what I am speaking about.
    Tens of millions also use their light trucks to tow camp 
trailers, snowmobiles, or boats. Last summer while camping, a 
reporter with a major news organization called me and asked if 
SUV owners should feel guilty about what he referred to as 
``gas guzzling vehicles'' that some would say nobody needs. I 
looked around the campground and I saw lots of motorhomes, SUVs 
and pickups. Near them were families cooking breakfast over 
open fires, a father and son headed to the lake to fish. Some 
of the families included grandparents who were passing along an 
important tradition.
    What I saw is something I think we need more of in this 
country--families together outdoors, having fun, and creating 
memories. Importantly, they would not be doing so without 
vehicles that get them, their campers, and their gear to 
campsites. This lifestyle, along with boating, horse shows and 
many other forms of outdoor recreation could disappear if fuel 
economy mandates are pushed to the extreme, or become a luxury 
that only the wealthy could afford.
    Today, just 1 percent of cars have the capacity to tow a 
small trailer or fishing boat. Indeed, SUVs and minivans came 
on the scene as car substitutes because Americans demanded 
vehicles that could carry a family comfortably and safely and 
haul and tow for recreational purposes. Loss of towing capacity 
and reduced safety were never envisioned when the CAFE program 
was conceived in 1976, but that is what happened.
    But its most strategic shortcoming is that it was conceived 
to reduce our reliance on foreign oil, and since we have more 
than doubled the percentage of our oil imports. So a 
fundamental question is, are we willing to bet our strategic 
interests again solely on CAFE.
    The question is always raised, why can't somebody make a 
light truck or SUV that gets 35 miles to the gallon. Gasoline 
has been $5 to $6 a gallon in Europe for years, and yet the 
fastest growing vehicle segment in Europe is SUVs. In the 
United States, we have had sustained high gas prices and light 
trucks are still selling strong.
    The marketplace is begging for an ultra-high mileage, full-
size vehicle that meets the utility niche. Since market 
pressures have not already created such a vehicle, any 
legislation encouraging its arrival must anticipate any 
potential tradeoffs and explain them up front to the American 
people.
    We need to work innovatively to solve our strategic and 
environmental challenges in ways that hold more promise and 
preserve the varied transportation needs of the American 
people. Chairman Boxer, I commend you for your remarks last 
month at the National Press Club when you said cars and trucks 
must move toward green and renewable fuels such as 
environmentally clean biofuels. I would add clean diesel to 
that list.
    There is a ``build it and they will come'' energy 
opportunity in this country. SUV, pickup and RV owners would 
like to be able to burn alternative fuels that are more fuel 
efficient. The problem is lack of availability and no 
infrastructure to make these fuels viable economically. I urge 
this committee to be a catalyst for making infrastructure 
incentives and other consumer incentives a key part of the path 
forward.
    Historically, our Nation has accomplished great things when 
the times demanded it. Now is such a time. Decisions must be 
grounded in technical feasibility, shared responsibility, and 
respect for individual preferences, rather than a simple 
``nobody needs it'' attitude. Lifestyle preferences that 
include outdoor recreation should be valued as traditions worth 
protecting. As Senator Sanders said, finally, we must get it 
right this time. There will be no second chance if policies of 
expediency are allowed to rule the day, and a decade from now 
the only results are way of life detriments and no 
environmental or energy security improvements.
    Ultimately, what we are talking about from a vehicle 
standpoint are the vehicles that our grandchildren will all be 
driving. We won't be driving them, but our grandchildren 
probably will, so it is really, really important I think that 
we get it right and we work together collectively on a path 
forward.
    Thank you very much, Madam Chairman.
    [The prepared statement of Mr. McCahill follows:]

    Statement of Barry W. McCahill, President, SUV Owners of America

    Good morning, Chairman Boxer, Senator Inhofe and members of the 
Committee.
    Thank you for including the views of SUV, van, minivan and pickup 
truck owners in the hearing today. All of which are referred to and 
regulated as ``light trucks.''
    SUVOA is an independent, non-profit organization looking out for 
the needs of not only those who enjoy the great outdoors, but also 
those who need the power and utility of full-size vehicles that can 
haul, tow and carry more people. Our purpose is not to market light 
trucks. Instead, we advocate for vehicle choice, and work to educate 
consumers honestly about such topics as safety, fuel economy, emissions 
and vehicle utility.
    Personal transportation is a multi-faceted proposition. We are not 
a one-size-fits-all society and light trucks fill an important economic 
and social niche. Those who own these vehicles want improved fuel 
economy and less dependence on imported oil as much as anyone. Let me 
be clear. As an SUV owner who lives in a state where these vehicles are 
very popular, I can assure you that owners want better fuel economy.
    Most own them because they meet their family, business or lifestyle 
needs, and a smaller vehicle would force them to give up important 
attributes they need and value. Most do not buy them to make a fashion 
statement.
    After four decades of a federal emphasis on making safety a 
purchase priority, many also are persuaded by the better crash 
performance of larger vehicles. Based on 10 years of data from the 
National Highway Traffic Safety Administration (NHTSA) found that SUVs 
are 5-7 times safer than passenger cars. I have attached our study as 
Attachment A.
    Moreover, numerous experts have studied the effect of gas mileage 
standards that resulted in down-sized cars and light trucks and found 
that safety has suffered because smaller vehicles simply do not provide 
the same protection to their occupants that larger ones do.
    One group, the Insurance Institute for Highway Safety (IIHS), 
tracks the safety of a variety of vehicles using NHTSA and insurance 
company claims data. IIHS data clearly show that since 1978, the 
overall rates of driver and occupant deaths per million registered 
vehicles have declined across the board. However, declines in death 
rates have been largest for SUV occupants, showing that larger vehicles 
are safer than smaller ones. A chart comparing fatal crash risk across 
vehicle groups can be found as Attachment B.
    Tens of millions also use their light trucks both as family 
transportation during the week and as the vehicle that tows a trailer 
or boat on weekends and vacations. Most people buy their vehicles for 
``peak use.'' That is, if they need a vehicle to tow a boat or horse 
trailer, they buy a vehicle capable of doing that--and then use that 
vehicle for other transportation needs such as commuting and family 
errands.
    I am one of them. I hold a U.S. Coast Guard Master license and have 
owned boats all my life. I also own a motor home that my wife and I use 
for camping and to connect with our children, grandchildren and friends 
around the country.
    Last summer, while camping, a reporter with a major news 
organization called me. He wanted to know if SUV owners should feel 
guilty for owning what he referred to as ``gas-guzzling vehicles that 
some would say nobody needs.''
    It was early morning and as I looked around the beautiful 
campground, Ponderosa State Park in McCall, Idaho, I saw lots of motor 
homes, SUVs and pickups. Near them were families cooking breakfast over 
open fires. A father and son headed to Payette Lake to fish. Some of 
the families included grandparents who were passing along an important 
tradition.
    What a profound disconnect from the question the reporter asked. I 
saw no guilt, nor should there be any. What I saw is what we need more 
of in this country--families together outdoors having fun and creating 
memories.
    Importantly, they would not be doing so without vehicles that can 
get them, their trailers' fifth wheels and all their other gear to the 
campsites. This lifestyle, along with boating, horse shows and many 
other forms of outdoor recreation, could disappear if fuel economy 
mandates are pushed to the extreme--or at minimum a luxury that only 
the wealthy could continue to enjoy.
    As part of my formal statement, I am including a photograph of a 
restored 1951 Ford sedan hitched to a camping trailer. Tom Nelson, an 
Idaho RV dealer, owns this rig and keeps it at his dealership as a 
reminder of the days back in the 1950s when RVing was just beginning. 
And cars could still tow a trailer.
    Today, just one percent of cars have the capacity to tow a small 
trailer or fishing boat. Why? Because of Federal fuel economy mandates.
    Indeed SUVs and minivans came on the scene as car substitutes 
because Americans demanded vehicles that could carry a family 
comfortably and safely, and haul and tow for recreational purposes 
after ever more stringent CAFE standards had regulated family station 
wagons off the market. Fortunately Congress was wise enough to 
recognize that light trucks do a lot more work than passenger cars and 
therefore should be subject to less stringent fuel economy standards.
    SUVOA recently compiled a towing guide to help consumers match 2007 
tow vehicles to popular RVs, boats, and other recreational equipment 
that need to be towed. The guide also provides safety tips, 
illustrations and links to other towing-related Websites. In compiling 
the guide, we learned that there is a real need for consumer education 
about towing because many people today try to tow things that exceed 
motor vehicle and RV dealer recommendations for safe towing.
    According to the RV Safety and Education Foundation, 49 percent of 
travel trailers are towed in excess of the vehicle's recommended 
maximum capacity. Our SUVOA press release on lost towing capacity, 
containing a link to the towing guide on our Website is in Attachment C 
of my testimony.
    Loss of towing capacity was not envisioned when the Corporate 
Average Fuel Economy or CAFE program was conceived in 1976. But it 
happened because in the rush to ``do something'' about oil dependence, 
the down range consequences were not well thought out. Fuel economy 
trumped all other considerations.
    Let's hope history does not repeat itself. But it could. The CAFE 
levels many now want to require would have profound lifestyle 
consequences for our vehicle fleet--cars, light trucks and even large 
RVs and on-road trucks. Moreover, it's highly unlikely to get us where 
we need to be with energy independence. In 1975, we imported 35 percent 
of our oil from foreign sources. Today, we import more than 70 percent 
of our oil.
    I've been involved with CAFE for nearly three decades. I retired in 
1996 after a career at NHTSA, the agency that manages the program. So, 
I'm familiar with the history of the CAFE program. It manipulates the 
supply of vehicles while ignoring consumer wants and needs. Thousands 
of lives have been lost because of unintended safety consequences from 
CAFE-induced vehicle downsizing. Whole forests have been decimated to 
print enough paper to explain its complexities.
    But its most strategic shortcoming is that it creates expectations 
that do not pan out. Conceived to reduce our reliance on foreign oil, 
as I mentioned earlier, we have since doubled the percentage of oil 
imports. CAFE did not do what it was intended to do.
    The perfect analogy of CAFE's unintended consequences is in this 
month's issue of Consumer Reports. The article, ``Washers and Dryers--
Dirty Laundry'' is about the Federal Government's new efficiency 
standards for washing machines that saves energy but weakens the 
washers to the point they don't do what they're supposed to. According 
to Consumer Reports:
    ``Not so long ago you could count on most washers to get your 
clothes very clean. Not anymore. Our latest tests found huge 
performance differences among machines. Some left our stain-soaked 
swatches nearly as dirty as they were before washing. For best results 
you'll have to spend $900 or more. What happened? As of January, the 
U.S. Department of Energy has required washers to use 21 percent less 
energy, a goal we wholeheartedly support. But our tests have found that 
traditional top-loaders, those with the familiar center-post agitators, 
are having a tough time wringing out those savings without sacrificing 
cleaning ability, the main reason you buy a washer.''
    Among the reasons we are here today is precisely because CAFE has 
failed to deliver and the nation needs a new strategy. Are we willing 
to bet our strategic interested on CAFE again, or is it time to try 
something else?
    So why can't somebody just make a light truck that gets 35 miles 
per gallon? As complex as all of this is it really boils down to one 
simple concept: Gasoline has been $5 and $6 a gallon in Europe for 
years and yet the fastest growing vehicle segment in Europe is SUVs. In 
the United States we have had sustained high gas prices and light 
trucks are still selling strong. The marketplace is begging for an 
ultra-high-mileage full-sized vehicle that meets the utility niche. 
Since market pressures have not already resulted in such a vehicle(s), 
legislation forcing its arrival surely must come with negative 
tradeoffs consumers would not accept if they knew. As a matter of basic 
fairness and sound policy, potential tradeoffs need to be anticipated 
and explained up front to the American people.
    Moreover, why not try a better approach? Why not work innovatively 
to solve our strategic energy challenges in ways that hold more promise 
and preserve the varied transportation needs of the American people?
    Chairman Boxer, I commend you for your remarks last month at the 
National Press Club where you said that ``cars and trucks must move 
toward, green, renewable fuels such as environmentally clean biofuels. 
. . .'' I would add clean diesel to the list.
    There is a ``build it and they will come'' energy opportunity in 
this country today. SUV, minivan pickup truck and RV owners would like 
to be able to burn alternative fuels that are more efficient. The 
problem is lack of availability and no infrastructure to make these 
fuels viable economically. I urge this Committee to be the catalyst for 
making infrastructure incentives a key part of a path forward.
    Historically our nation has accomplished great things when the 
times demanded it. Now is such a time. Energy and environmental 
decisions must be grounded in technical feasibility rather than 
unrealistic thinking; shared responsibility rather than some carrying 
the burden for all; and respect for individual preferences rather than 
a ``nobody needs'' attitude.
    Lifestyle preferences that include outdoor recreation should be 
valued as traditions worth protecting.
    Finally, we must get it right this time. There will be no second 
chance if policies of expediency are allowed to rule the day and a 
decade from now the only results are way of life detriments and no 
environmental or energy security improvements.
    Thank you and I would be pleased to answer any questions.

    [GRAPHIC] [TIFF OMITTED] T1967.041
    
    [GRAPHIC] [TIFF OMITTED] T1967.042
    
    [GRAPHIC] [TIFF OMITTED] T1967.043
    
    [GRAPHIC] [TIFF OMITTED] T1967.044
    
    [GRAPHIC] [TIFF OMITTED] T1967.045
    
    [GRAPHIC] [TIFF OMITTED] T1967.046
    
    [GRAPHIC] [TIFF OMITTED] T1967.047
    
    [GRAPHIC] [TIFF OMITTED] T1967.048
    
    [GRAPHIC] [TIFF OMITTED] T1967.049
    
    [GRAPHIC] [TIFF OMITTED] T1967.050
    
    [GRAPHIC] [TIFF OMITTED] T1967.051
    
    [GRAPHIC] [TIFF OMITTED] T1967.052
    
    [GRAPHIC] [TIFF OMITTED] T1967.053
    
    [GRAPHIC] [TIFF OMITTED] T1967.054
    
    [GRAPHIC] [TIFF OMITTED] T1967.055
    
    [GRAPHIC] [TIFF OMITTED] T1967.056
    
    [GRAPHIC] [TIFF OMITTED] T1967.057
    
    Senator Boxer. Thank you so much.
    We are now into the question time. I am going to defer my 
questions until the end, so I am going to call on Senator 
Sanders to start 5-minute rounds.
    Senator Sanders. Thanks. Madam Chair, thank you very much 
for holding this important hearing and for all the work you are 
doing on raising consciousness and providing solutions on 
global warming.
    I want to thank all of the panelists. I think this has been 
a very educational opportunity for those of us up here to hear 
what many of you from different walks of life and different 
regions of our country have to say about the impact of global 
warming in your particular areas of interest.
    But let me focus my questions obviously on Bryant Watson 
who is the head of the Vermont Association of Snowmobilers and 
snowmobile travelers in the State of Vermont. Bryant has done a 
great job with that organization over the years.
    Bryant, you mentioned the economic impact that global 
warming is having on our economy in the loss of tourism and the 
fact that fewer people are doing snowmobiling and skiing and 
snowboarding and so forth and so on. Focus for a moment not 
just on tourism, as important as that is, but what it means for 
our rural way of life. In the wintertime, we have thousands and 
thousands of families. These are husbands, wives, and kids 
going out snowmobiling, going on beautiful trips, just 
incredibly beautiful parts of our State. We welcome all of you 
to come to our State to see those beautiful parts. But what is 
happening if we are losing snow and families don't have the 
opportunity to get out in the wintertime?
    Mr. Watson. Thank you for the question, Senator Sanders. It 
means a very lot to a lot of families who live in rural 
Vermont, to a lot of families who do not live in rural Vermont, 
to a lot of families from outside of the State of Vermont who 
come to enjoy rural Vermont. We have seen trail passes over the 
last several years be down more than 40 percent over what they 
should be, so that means that a very big portion of that $500 
million a year economic impact that snowmobiling should be 
bringing to the State is not being brought to the State.
    When this happens, the small businesses, the mom and pop 
stores, the little hotels, the little motels that are in the 
back country of Vermont.
    Senator Sanders. Some of our most hard pressed economic 
areas.
    Mr. Watson. Some of our most hard pressed economic areas 
that have no other ability to offer jobs, are losing great 
amounts of jobs because of the lack of winter type tourism in 
those areas. Ice fishing, a lot of the lakes haven't frozen 
over, Lake Champlain didn't even freeze over this year, but a 
lot of the other lakes never froze over until February. So ice 
fishing was definitely set back many, many weeks from what it 
normally would be. So even that economic impact has not been 
there.
    So the snowmobile dealers in the State are having a very 
tough time as I indicated. Many of them are giving up their 
dealerships because they can't afford to continue to take the 
number of snowmobiles that the dealers want to make them take 
in order to be able to retain their dealership. That is not 
only in Vermont. I have talked to my counterparts in New York 
and Michigan and Wisconsin and Minnesota, and they all feel the 
same. They all see dealerships and/or mom and pop businesses 
going out of business because of the lack of winter recreation.
    Senator Sanders. Okay. Thanks very much.
    Senator Boxer. Senator Sanders, thank you very much.
    Senator Lautenberg.
    Senator Lautenberg. Thanks again, Madam Chairman.
    Mr. Berry, I made an error when I looked at the 
organization you represent. I belong to the National Ski 
Association, which is not the ski owners, although I have tried 
that a little bit, and was it was not a good business. It had 
nothing to do with whether or not people could get to the area.
    When we look at the recreational areas, particularly I am 
especially fond of winter moments. My son is a ski instructor 
and ski competitor in Vail, CO. My youngest daughter was 
captain of the women's ski team at Colgate University and she 
took them to a national championship. We have skied all over. 
At one point in time, I have skied every area in Vermont, Mr. 
Watson. As they would open, I would ski them. By the way, I 
still do it, yes, 60 years of skiing, and sometimes skiing 
35,000 or 40,000 feet in a day, bragging.
    But what happens is not only is the lost revenue, and the 
pain to the small business people, many of whom have been in 
place, built their businesses closely in contact with the 
visitors, and present a really wholesome environment. That is 
the thing also, that when it is parents and kids together, and 
they are skiing together, and the only thing that gets you 
really ginned up is when your little kid passes you by on the 
slope. I am talking about my kids. I am talking about my 5-year 
old. She is the one who lives in Colorado. She is really good.
    Anyway, but it is a whole cultural thing, the trip up to 
Vermont, and we did it for many years, at night, hearing the 
cry, Dad, when are we going to get there; Dad, when are we 
going to get there, and I keep saying, in minutes, in minutes, 
in minutes.
    But it established a camaraderie in a family that is very 
hard to get in other places, whether it is fishing or sailing 
or boating or snowmobiling. You name it. Nothing brings 
families together more than outdoor recreational activities. I 
treasure it, and if I didn't have to work so many hours here, I 
would do a lot more of it with my kids who live all over.
    But when we looked at what we can do about it, and I see 
that the ski areas, Mr. Berry, are finding ways to get green 
energy included, because there is an energy consumption, but 
there is no place that adds more to the quality of life in the 
country than the ski areas, than the recreational areas that 
the country owns, available for activities, whatever they are.
    So I commend those of you in the recreational industry. The 
erratic weather conditions are things that are talked about 
here in derogatory terms, saying, well, there are cold days out 
there, more cold days, and the polar bears aren't really in bad 
shape. Well, not if you take them in a particular area, but if 
you take the population overall, they are declining. They are 
emaciated. It is terrible to see them. Loads and loads of snow 
comes, and often in the Sierras, and now what happens it is 
gone in no time, Mr. Berry. That is the problem. There is very 
little retention of the snow.
    So the days are shortened. The people are disappointed, and 
the jobs are not there. So I commend each one of you for your 
comments, and once again the Chairman for highlighting this 
very important part of America's favorite pastime, outdoor 
recreation.
    Thank you all very much.
    Senator Boxer. Senator Lautenberg, you said it so well. I 
really am not going to ask questions because really everything 
I was interested in each of you addressed, whether it was Mr. 
Campion giving us the hard cold facts on what has occurred 
already to his business challenges as a result of the warming 
of the climate, and to the witnesses that were invited by my 
Republican friends. I am really disappointed my friends didn't 
come here.
    This was a panel was in agreement, agreement that we have 
to act. We have to be smart about how we act, but we absolutely 
have to.
    I have a couple of questions I am going to submit to you, 
if you don't mind. I am going to hold the record open for a 
week and ask you to answer them, because it gets into some of 
the cures that we are looking at. But let me say, this was a 
rare experience for me as Chairman here, where we have people 
wearing so many different hats here, with one message to us 
which is be smart about this, act on this, a lot depends on it.
    I also again want to thank our sports stars who are here 
with us, who care about this deeply. It is a passion with you. 
You don't want to think of a world where kids can't have the 
chance you had.
    We are really talking about a way of life here that goes 
well beyond politics, and has nothing to do with politics. It 
brings us all together. It is rare that you can talk about a 
business that brings so much joy to people. It is a little 
different than the gas business where people pull up to the 
pump in California now, nearing $4 a gallon. They don't feel so 
happy toward the oil business, but they are sure happy when 
they get up there.
    I agree with Mr. McCahill. We have to get them up there in 
fuel efficient vehicles. That is another one of our jobs that 
we have to do.
    So I will again say for the record, what we are talking 
about here in America, and I am trying to figuratively grab my 
colleagues by the shoulders and say, listen to this. So I am 
going to say it again: Listen to this. In 2006, national 
tourism-related sales amounted to $1.2 trillion in the United 
States, and were responsible for over 8 million jobs. So when 
we are talking about climate change, it is not just an academic 
exercise.
    It is literally life and death for a lot of people in terms 
of their survival. When you are talking about my State, as 
usual we are usually about 10 percent, we are $94 billion, and 
900,000 jobs in 2006. The prediction of our snowpack is quite 
alarming.
    So I am going to follow up particularly with Dr. Scott on 
some of the technical questions about your views on these 
predictions. But we know enough now to know that time is of the 
essence.
    I really want to say to each and every one of you at this 
panel and to the athletes that are here today, this is just I 
hope you view it as your first visit to Washington. Each of you 
I would guess without asking, and I won't ask, you know, has 
different political views on a lot of other issues. You 
probably differ on many other things, but you are brought 
together on this issue. I would urge you to stay together, 
because I think if we can make this issue of global warming a 
bipartisan issue, there will be nothing stopping us.
    Right now, it is too polarized. We have, you know, a few 
bipartisan opportunities. We have the Lieberman-McCain bill. We 
have Kerry-Snowe. We have a few of these bills that are 
bipartisan. For the most part, yet, we haven't really had the 
breakthrough. So I guess I am asking you, not asking you now, 
but I am asking you to think about this when you leave. I hope 
this was a good experience for you. I hope you realize that in 
a Senate that is so busy, this is probably our last day before 
a break, and to have four Senators here for most of the time is 
very, very good. I am sorry we didn't have anybody from the 
other side. I am sure they had many other challenges they had 
to deal with today.
    But let's not give up on this. Your voices are really key 
here. I would love to see you come back another day and bring 
other people from this recreation industry with you, and make 
it a lobby day on the Hill, however you do it, because, 
especially I would say to the star athletes who are here, 
people are very interested in meeting you, in talking with you, 
and hearing you. I need all the help I can get with this job 
that I have. I think your voices are going to really help me.
    So I thank you from the bottom of my heart for coming up 
here today. Your testimony has been entered into the record in 
full. It will make a difference as we set the stage for what we 
consider to be major legislation. We are starting with 
confidence-building measures, small measures, but they are 
starting to add up in the way Americans are looking at their 
daily lives. I think it is starting to make a difference now.
    Thank you for adding to that sense of urgency.
    The committee stands adjourned.
    [Whereupon, at 11:55 a.m., the committee adjourned.]
    [Additional statement submitted for the record follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Thank you for having this hearing today, Madam Chairman. I have to 
say, however, that we seem to have hearing after hearing after hearing 
on climate change--indeed, this is the Committee's second one this week 
alone--but we don't seem to actually discuss legislation. While other 
Committees without jurisdiction on this issue attempt to write our 
Nation's global warming policies, this Committee sits idly by talking 
about tangential issues. I believe that if we do wrestle with actual 
legislation, then the folly of cap-and-trade carbon legislation will 
become apparent.
    The recreation industry's true threats come not from climate 
change--which has always changed and will always change--but from the 
so-called global warming `solutions' being proposed by government 
policymakers. Misguided efforts to `solve' global warming threaten to 
damage the travel and recreation industry. In short, it is a direct 
threat America's way of life. If we cannot fly to remote locations, and 
if few automobiles are capable of pulling boats, jet skies, and 
campers, and if RVs become a thing of the past as environmentalists 
would like, then minor climate fluctuations will have little impact on 
recreation because Americans will not have the means to recreate.
    I will not belabor my views about the scientific underpinnings of 
global warming alarmism, other than to make a few observations. The 
fact that climate fluctuates--changes--is nothing new, and should not 
be feared. It has always changed, and unless the processes of the 
planet suddenly stopped, it always will. There is little disagreement 
that it warmed in the Northern Hemisphere from about 1970's until 1998, 
and that since that time, temperatures flattened. And there is general 
agreement that some human activities such as the building of cities and 
expanding agriculture, have contributed to this. But there remains much 
debate in the peer-reviewed scientific literature as to the many 
factors which may influence climate that is of importance to the 
question of whether climate fluctuations are natural or caused by 
humans. But regardless of that debate, a healthy functioning planet 
means constant changes in our climate.
    There are winners and losers as climate fluctuates. A warming 
period could be a boon for warm weather destinations like beaches and 
lakes and a cooling period like we experienced from 1940-1970s could be 
beneficial for cold weather recreation like skiing and snowboarding. 
This past winter saw record snows in the Rocky Mountain region as well 
as an unusually cold spring in Alaska. Currently, we are seeing a 
Memorial Day snow advisory for the Colorado Mountains. Wyoming being 
buried in a May snowstorm and parts of Canada are still enduring 
winter. In addition, South Africa just set 54 new cold weather records 
with some parts seeing snow for the first time in 33 years as snow and 
ice continue to fall. And I am not finished. A massive snowstorm in 
China has closed highways and stranded motorists. And finally, winter 
has arrived early in Australia as the snow season is off to a promising 
start for the winter recreation industry.
    But the most verifiable threat to the recreation and travel 
industry is the unintended consequences of misguided government policy 
and environmental activists. The chilling effect of guilt that the 
climate alarmists are attempting to instill in Americans for owning 
four wheel drive vehicles, flying in an airplane and enjoying travel is 
enough to harm the industry. For examples of this promotion of 
misguided policies and guilt, you need look no further than a proposal 
in April by the UK-based Institute for Public Policy Research, which 
called for tobacco-style health warnings on airplanes to warn 
passengers that the plane flight may be contributing to a global 
warming crisis. The group proposed posting signs on airplanes which 
read ``flying causes climate change.''
    Another example of unintended consequences by climate crusaders was 
the recent proclamation by a UK grocery store announcing it would usher 
in 'carbon friendly' policies and stop importing food from faraway 
nations. This proposal may have been popular with wealthy Western 
environmentalists, but the idea did not sit so well with poor African 
farmers. As a February 21, 2007 BBC article details:&
    ``Kenyan farmers, whose lifelong carbon emissions are negligible 
compared with their counterparts in the West, are fast becoming the 
victims of a green campaign that could threaten their livelihoods. A 
recent bold statement by UK supermarket Tesco ushering in `carbon 
friendly' measures--such as restricting the imports of air freighted 
goods by half and the introduction of `carbon counting' labeling--has 
had environmentalists dancing in the fresh produce aisles, but has left 
African horticulturists confused and concerned.''
    The BBC article continues:
    ``Half of this produce goes to the UK's supermarkets, generating at 
least <brit-pound>100m per year for this developing country. The 
dependence on the UK market cannot be underestimated, says Stephen 
Mbithi Mwikya, chief executive of FPEAK. For Kenya, horticulture is the 
country's second biggest foreign exchange earner after tourism. `This 
announcement from Tesco is devastating', says Mr Mbithi.''
    The recent announcement by travel guru Mark Ellingham, the author 
of the Rough Guide travel book series, that he was now recanting his 
promotion of worldwide travel is another blow to the travel and 
recreation industry. Ellingham now says that our addiction to `binge 
flying' is killing the planet.
    This kind of alarmism should concern the travel and recreation 
industry, not natural climate fluctuations which mankind has no control 
over.
    There is even more proof showing that the dangers facing travel and 
recreation are coming from climate hysteria. The Associated Press on 
May 16, 2007 reported that ecotourism--the type of travel you would 
expect environmentalists to endorse--is no more Earth friendly than 
regular travel due to the long plane flights necessary to bring 
vacationers to exotic locales. The Norwegian Environment Minister Helen 
Bjoernoey is now warning about long distance travel.
    ``Long distance travel--especially air travel--is a challenge to 
all of us. We know that it has serious impacts on the climate,'' 
Bjoernoey said.
    I cannot think of a more devastating sentiment to the industry than 
that. Reduce air travel because of unfounded fears of climate doom. 
That is the authentic threat not only to the travel industry, but the 
developing world which depends so much on tourism to improve the life 
its residents. Clearly, the unfounded fears of a man-made climate 
catastrophe and the proposed solutions represent the gravest threats to 
the industry.
    Thank you.
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
